<html>
<title> - ACCOUNTABILITY AND OVERSIGHT OF THE FEDERAL COMMUNICATIONS COMMISSION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                  ACCOUNTABILITY AND OVERSIGHT OF THE 
                    FEDERAL COMMUNICATIONS COMMISSION

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 15, 2019

                               __________

                           Serial No. 116-34
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov
                        
                        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-530 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
             Subcommittee on Communications and Technology

                        MIKE DOYLE, Pennsylvania
                                 Chairman
JERRY McNERNEY, California           ROBERT E. LATTA, Ohio
YVETTE D. CLARKE, New York             Ranking Member
DAVID LOEBSACK, Iowa                 JOHN SHIMKUS, Illinois
MARC A. VEASEY, Texas                STEVE SCALISE, Louisiana
A. DONALD McEACHIN, Virginia         PETE OLSON, Texas
DARREN SOTO, Florida                 ADAM KINZINGER, Illinois
TOM O'HALLERAN, Arizona              GUS M. BILIRAKIS, Florida
ANNA G. ESHOO, California            BILL JOHNSON, Ohio
DIANA DeGETTE, Colorado              BILLY LONG, Missouri
G. K. BUTTERFIELD, North Carolina    BILL FLORES, Texas
DORIS O. MATSUI, California, Vice    SUSAN W. BROOKS, Indiana
    Chair                            TIM WALBERG, Michigan
PETER WELCH, Vermont                 GREG GIANFORTE, Montana
BEN RAY LUJAN, New Mexico            GREG WALDEN, Oregon (ex officio)
KURT SCHRADER, Oregon
TONY CARDENAS, California
DEBBIE DINGELL, Michigan
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Mike Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................     3
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................     4
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7
    Prepared statement...........................................     8
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................    10
    Prepared statement...........................................    12
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, prepared statement..............................   100

                               Witnesses

Ajit Pai, Chairman, Federal Communications Commission............    13
    Prepared statement...........................................    16
    Answers to submitted questions \1\
Michael O'Rielly, Commissioner, Federal Communications Commission    22
    Prepared statement...........................................    24
    Answers to submitted questions \1\
Brendan Carr, Commissioner, Federal Communications Commission....    32
    Prepared statement...........................................    34
    Answers to submitted questions \1\
Jessica Rosenworcel, Commissioner, Federal Communications 
  Commission.....................................................    37
    Prepared statement...........................................    39
    Answers to submitted questions \1\
Geoffrey Starks, Commissioner, Federal Communications Commission.    43
    Prepared statement...........................................    45
    Answers to submitted questions \1\

                           Submitted Material

Letter of May 14, 2019, from Vanita Gupta, President and CEO, and 
  Kristine Lucius, Executive Vice President for Policy and 
  Government Affairs, Leadership Conference on Civil and Human 
  Rights, to Mr. Doyle and Mr. Latta, submitted by Mr. McNerney..   101
Petition for Clarification or Declaratory Ruling, WC Docket No. 
  10-90, Federal Communications Commission, May 6, 2019, 
  submitted by Mr. Loebsack \2\
Letter of May 14, 2019, from Mr. Walberg, et al., to Ajit Pai, 
  Chairman, Federal Communications Commission, submitted by Mr. 
  Walberg........................................................   105
Article of May 15, 2019, ``Tribes across country push for better 
  internet access,'' by Felicia Fonseca, Associated Press, 
  submitted by Mr. O'Halleran....................................   108

----------

\1\ All five witnesses' answers to submitted questions have been 
retained in committee files and also are available at https://
docs.house.gov/Committee/Calendar/ByEvent.aspx?EventID=109479.
\2\ The petition has been retained in committee files and also is 
available at https://docs.house.gov/meetings/IF/IF16/20190515/109479/
HHRG-116-IF16-20190515-SD004.pdf.
Letter of May 14, 2019, from Bud Thaler, Vice President of 
  Legislative Affairs, National Association of Federally-Insured 
  Credit Unions, to Mr. Doyle and Mr. Latta, submitted by Mr. 
  Doyle..........................................................   112
Letter of May 14, 2019, from Marc Rotenberg, President, et al., 
  Electronic Privacy Information Center, to Mr. Doyle and Mr. 
  Latta, submitted by Mr. Doyle..................................   114
Letter of May 14, 2019, from Shailen P. Bhatt, President and CEO, 
  Intelligent Transportation Society of America, to Mr. Doyle and 
  Mr. Latta, submitted by Mr. Doyle..............................   119
Statement of Edison Electric Institute, et al., May 15, 2019, 
  submitted by Mr. Doyle.........................................   121

 
 ACCOUNTABILITY AND OVERSIGHT OF THE FEDERAL COMMUNICATIONS COMMISSION

                              ----------                              


                        WEDNESDAY, MAY 15, 2019

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:01 a.m., in 
the John D. Dingell Room 2123, Rayburn House Office Building, 
Hon. Mike Doyle (chairman of the subcommittee) presiding.
    Members present: Representatives Doyle, McNerney, Clarke, 
Loebsack, Veasey, McEachin, Soto, O'Halleran, Eshoo, DeGette, 
Butterfield, Matsui, Welch, Lujan, Schrader, Cardenas, Dingell, 
Pallone (ex officio), Latta (subcommittee ranking member), 
Scalise, Olson, Kinzinger, Bilirakis, Johnson, Walberg, 
Gianforte, and Walden (ex officio).
    Also present: Representative Griffith.
    Staff present: AJ Brown, Counsel; Jeffrey C. Carroll, Staff 
Director; Jennifer Epperson, FCC Detailee; Evan Gilbert, Press 
Assistant; Tiffany Guarascio, Deputy Staff Director; Alex 
Hoehn-Saric, Chief Counsel, Communications and Consumer 
Protection; Zach Kahan, Outreach and Member Service 
Coordinator; Jerry Leverich, Senior Counsel; Dan Miller, Policy 
Analyst; Phil Murphy, Policy Coordinator; Kaitlyn Peel, Digital 
Director; Tim Robinson, Chief Counsel; Andrew Souvall, Director 
of Communications, Outreach, and Member Services; Robin 
Colwell, Minority Chief Counsel, Communications and Technology; 
Jordan Davis, Minority Senior Advisor; Kristine Fargotstein, 
Minority Detailee, Communications and Technology; Margaret 
Tucker Fogarty, Minority Staff Assistant; Peter Kielty, 
Minority General Counsel; and Tim Kurth, Minority Deputy Chief 
Counsel, Communications and Technology.
    Mr. Doyle. Good morning, everyone. The Subcommittee on 
Communications and Technology will now come to order. The Chair 
will now recognize himself for 5 minutes.

   OPENING STATEMENT OF HON. MIKE DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    I would like to welcome everyone to this subcommittee's 
first oversight hearing of the Federal Communications 
Commission. I'd also like to thank FCC Chairman Pai and the 
other Commissioners for appearing before us today.
    I am also very happy to welcome Commissioner Starks, both 
to this hearing and to the Commission. It's good to have the 
Commission back up to full strength. Welcome, Commissioner 
Starks.
    It has been 9 months since this subcommittee's last 
oversight hearing, and while a lot has happened in that time, a 
lot of issues that were a concern then remain unresolved today.
    At our last oversight hearing, I expressed concerns about 
revelations that mobile carriers were selling location data. I 
expressed concerns about the Mobility Fund II proceeding, 
competition policy, and U.S. spectrum policy.
    At that time, I expressed serious concerns to Chairman Pai 
about reports that mobile wireless carriers were sharing 
individuals' real-time location data with third parties.
    Chairman Pai, you told us that you were investigating this 
issue. Today, we still don't have assurances that these 
practices have stopped. And since we first heard about this 
problem, new even more troubling revelations have emerged, 
namely, that this data was being sold to bounty hunters and God 
knows who else.
    Americans don't know who had access to this data, who sold 
the data, or whether anyone is going to be held accountable 
because we have heard nothing about it yet from the FCC.
    At this juncture, neither Congress nor the American people 
understand the scope of what happened and no one has been held 
accountable for this reckless and illegal practice.
    The situation as it stands is unacceptable, as has been the 
lack of communication to this committee and the American people 
about this situation. We need answers.
    Nine months ago, I also expressed concerns about the 
Mobility Fund II proceeding. In a way, I am happy that the 
Commission has acknowledged that the process and the data in 
this proceeding were deeply flawed.
    However, rural communities around the country remain 
unserved and these funds remain unobligated. All we have heard 
from the Commission is that you are investigating this issue, 
too. It is my understanding that the Commission has not 
requested new coverage data from carriers to correct its flawed 
maps.
    I don't know why you've waited so long to act to fix this 
problem, and today we sit here without a resolution in sight.
    In the same vein, I expressed concerns about old and faulty 
data being used to justify Commission decisions regarding 
competition policy in the Business Data Service market.
    Today, the Commission is considering using data we all 
agree to be faulty and misleading as well as data collected 
years ago that is long past stale in a forbearance proceeding 
by USTelecom.
    The Commission needs to clean up and update its data before 
it makes decisions that could seriously hamper the deployment 
of new fiber, limit consumer choice, and negatively affect 
Government agencies that still rely on legacy infrastructure 
for national security and public safety notices.
    And as we look to the future of 5G and the need for more 
mid-band, much thought is being given to the C-band. I have 
seen this band valued as high as $70 billion, and I think 
making a part of this band available for 5G service is 
important for meeting the Nation's mid-band spectrum needs.
    But given that much of the country has no Gs, shouldn't we 
try to use the value of this band to fund the deployment of 
broadband to unserved areas as well as to help with adoption 
and affordability?
    Simply put, it seems irresponsible and unconscionable to 
give money to four foreign satellite companies when the 
broadband infrastructure needs of our Nation are so great.
    And finally, on the topic of robocalls, this problem is out 
of control. Americans this year will receive 12 billion more 
robocalls then they received last year. And since the Trump 
administration took office Americans have gone from receiving 2 
billion calls a month to 5 billion calls a month.
    It has become a game for Members of Congress to get 
robocalled while they are complaining about robocalls, which 
happened to Mr. Soto at our last hearing on robocalls.
    We are past the point of band aids. We need real solutions 
to address the problem and we need real protections for the 
American people.
    I want to thank you all for being here today, and I look 
forward to the testimony of our witnesses.
    [The prepared statement of Mr. Doyle follows:]

                 Prepared Statement of Hon. Mike Doyle

    Good morning, I'd like to welcome everyone to this 
subcommittee's first oversight hearing on the Federal 
Communications Commission. I'd also like to thank FCC Chairman 
Pai and the other Commissioners for appearing before us today.
    I'm also very happy to welcome Commissioner Starks, both to 
this hearing and to the Commission. It's good to have the 
Commission back up to full strength.
    It's been 9 months since this subcommittee's last oversight 
hearing, and while a lot has happened in that time, a lot of 
the issues that were a concern then remain unresolved today. At 
our last oversight hearing, I expressed concerns about 
revelations that mobile carriers were selling location data, 
the Mobility Fund 2 proceeding, competition policy, and US 
spectrum policy.
    At that time, I expressed concerns to the Commission about 
reports that mobile wireless carriers were sharing individuals' 
real time location data with 3rd parties. Chairman Pai, you 
told us that you were ``investigating'' this issue. Today, we 
still don't have assurances that these practices have stopped. 
And since we first heard about this problem, new even more 
troubling revelations have emerged. Namely, that this data was 
sold to bounty hunters and God knows who else. Americans don't 
know who had access to this data, who sold the data, or whether 
anyone is going to be held accountable, because we have heard 
nothing about it yet from the FCC. At this juncture neither 
Congress nor the American people understand the scope of what 
happened, and no one has been held accountable for this 
reckless and illegal practice. The situation as it stands is 
unacceptable, as has been the lack of communication to this 
committee and the American people about this situation. We need 
answers.
    Nine months ago, I also expressed concerns about the 
Mobility Fund 2 proceeding. In a way I'm happy the Commission 
has acknowledged that the process and the data in this 
proceeding were deeply flawed. However, rural communities 
around the country remain unserved and these funds remain 
unobligated. All we have heard from the Commission is that you 
are ``investigating'' this issue too. It is my understanding 
that the Commission has not requested new coverage data from 
carriers to correct its flawed maps. I don't know why you've 
waited so long to act to fix this problem, and today we sit 
here without a resolution in sight.
    In the same vein, I expressed concerns about old and faulty 
data being used to justify Commission decisions regarding 
competition policy in the Business Data Service market. Today, 
the Commission is considering using data we all agree to be 
faulty and misleading, as well as data collected years ago that 
is long past stale, in a forbearance proceeding by US Telecom. 
The Commission needs to clean up and update its data before it 
makes decisions that could seriously hamper the deployment of 
new fiber, limit consumer choice, and negatively affect 
Government agencies that still rely on legacy infrastructure 
for national security and public safety services.
    As we look to the future of 5G and the need for more mid-
band, much thought is being given to the C-band. I have seen 
this band valued as high as $70 billion. I think making a part 
of this band available for 5G service is important for meeting 
the Nation's mid-band spectrum needs. But given that much of 
the country has No Gs, shouldn't we try to use the value of 
this band to fund the deployment of broadband to unserved areas 
as well as to help with adoption and affordability? Simply put, 
it seems irresponsible and unconscionable to give that money to 
four foreign satellite companies when the broadband 
infrastructure needs of our Nation are so great.
    Finally, on the topic of robocalls, this problem is out of 
control. Americans this year will receive 12 billion more 
robocalls then they received last year. And since the Trump 
administration took office Americans have gone from receiving 2 
billion calls a month to 5 billion. It's become a game for 
Members of Congress to get robocalled while they are 
complaining about robocalls, which happened to Mr. Soto at our 
last hearing on robocalls! We are past the point of band-aids. 
We need real solutions to address this problem, and real 
protections for the American people.
    Thank you again for being here and I look forward to the 
testimony of our witnesses.

    Mr. Doyle. And now the Chair will recognize Mr. Latta, 
ranking member of the subcommittee, for 5 minutes for his 
opening statement.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta. I thank my friend, the chair of the 
subcommittee. Thanks very much for having this hearing this 
morning, and also welcome to the Commissioners, who are here to 
discuss a variety of issues including infrastructure, spectrum, 
rural broadband, and robocalls.
    I think it's safe to say there is more agreement on the 
issues I just mentioned than disagreement. We can all agree on 
the importance of bringing the benefits of broadband to all 
Americans, especially rural Americans.
    But despite the work from this committee and the FCC, we 
still have Members on both sides of the aisle whose 
constituents lack broadband.
    Earlier this year, I was fortunate to have two of the FCC 
Commissioners join me in my district to see firsthand the 
connectivity my constituents enjoy and the additional 
connectivity they so desperately need.
    Commissioner Carr joined me for a visit, and the one stop 
turned to a five-stop day when we visited a local hospital and 
when we talked about telehealth.
    We went out to a local WISP, and the Commissioner was up on 
top of the elevator. We will mention he was up on top. The rest 
of them were taking great pictures of him up there. But he also 
visited one of our sheriffs and talked about 9 091 091.
    He was out to talk about what was happening with one of our 
local TV stations, the public WBGU and questions about repack, 
and then joined us at a farm where we were talking about 
agriculture and what we need to do with broadband there, and we 
appreciated that.
    And also we had Commissioner Carr join us 2 days later in 
the district in Defiance, Ohio, where he met with internet 
service providers across my district to discuss broadband 
access and the availability in northwest and west central Ohio, 
and I want to thank both Commissioners for joining us that day 
and that week.
    Being about to go out into the community and experience 
broadband connectivity or lack thereof is an incredibly useful 
tool to know where we need to target the precious Federal 
funding to support additional broadband development.
    To help further inform the FCC's ability to tell where 
broadband is and, more importantly, where it isn't, I 
introduced legislation last week with my good friend, the 
gentleman from Vermont, that would require the FCC to establish 
a challenge process to verify fixed and mobile broadband 
service coverage data.
    Local officials in my district have conducted their own 
broadband studies to evaluate their residence broadband needs 
and proved that there were holes in the FCC maps.
    After hearing about these local actions, I started working 
on my Broadband Mapping After Public Scrutiny Act, or Broadband 
MAPS Act, to enhance the data the FCC already collects by 
involving additional entities, such as local and State 
governments, to verify FCC's data.
    I look forward to hearing more about the Commission's 
mapping efforts and ways the agency is working to get a better 
picture of broadband connectivity in this country so that we 
can target truly unserved areas.
    I also look forward to hearing about the FCC's plans to 
continue making more spectrum available at 5G. As I have 
learned, 5G requires a variety of spectrum inputs--low-band, 
mid-band, high-band, as well as unlicensed.
    This is because each part of the band has different 
characteristics and all types are needed to build a robust 5G 
network capable of serving this country--including rural 
America.
    The FCC cleared a huge swath of mid-band spectrum in the 
incentive auction and carriers are now deploying innovative 
broadband offerings on that spectrum.
    The Commission has also successfully auctioned off spectrum 
in the high band and is actively working to make more spectrum 
available in the low band and unlicensed spaces.
    Another issue with broad bipartisan support is the need to 
stop the scourge of illegal robocalls. They are not wanted. 
They are tricking people into scams, and it's costing Americans 
billions of dollars.
    It is one of the biggest issues I hear when I am out in the 
district and it is affecting everyone. At our hearings on this 
topic last month, it became clear my district is not unique 
with these concerns.
    We must--and will--do everything in our power to stop the 
annoying and illegal robocalls while protecting the technology 
for the lifesaving, pro-consumer services people use and need.
    I am encouraged by the work of industry to protect 
consumers from unwanted robocalls by developing a set of 
procedures to authenticate caller ID information associated 
with telephone calls to combat unlawful calls and caller ID 
spoofing.
    I also appreciate the FCC's work in holding industry 
accountable for delivering that system to the public as early 
as the end of this year. I am optimistic that this will curb 
some of the illegal unwanted robocalls.
    But, as technology continues to evolve, so do the tactics 
the bad actors use to illegally spoof numbers to make 
fraudulent calls.
    For this reason I introduced with my friend, the chairman 
of our subcommittee, the Support Tools to Obliterate Pesky 
Robocalls Act, or STOP Robocalls Act. Our bill would give the 
FCC additional tools in its robocall toolbox to go after the 
bad actors.
    Specifically, the STOP Robocalls Act would help the FCC 
identify these scammers and empower consumers with robocall 
blocking technology.
    I look forward to hearing from our witnesses today and I 
thank the chairman again for calling this hearing.
    I yield back.
    [The prepared statement of Mr. Latta follows:]

               Prepared Statement of Hon. Robert E. Latta

    Good morning. I am happy to welcome the Commission here 
today to discuss its progress on a variety of issues, including 
infrastructure, spectrum, rural broadband, and robocalls.
    I think it's safe to say that there is more agreement on 
the issues I just mentioned than disagreement. We can all agree 
on the importance of bringing the benefits of broadband to all 
Americans, especially rural Americans. But, despite the work 
from this committee and the FCC, we still have Members on both 
sides of the aisle whose constituents lack broadband.
    Earlier this year, I was fortunate to have two FCC 
Commissioners join me in my district to see firsthand the 
connectivity my constituents enjoy and the additional 
connectivity they so desperately need. Commissioner Carr joined 
me for a visit at a hospital in Toledo, Ohio where we saw how 
health care professionals are embracing telemedicine for stroke 
patients. We also visited a local WISP who showed us how they 
provide broadband to the Wood County Sherriff's call dispatch 
center and a local farmer - where, of course, the Commissioner 
couldn't resist the opportunity to see an antenna up close and 
personal on the top of a grain elevator! My feet stayed on the 
ground. My trip with Commissioner Carr continued with a stop at 
WBGU in Bowling Green and ended on a farm in Napoleon, Ohio 
where we saw how they're utilizing precision agriculture 
technologies to help make their farm more efficient. Two days 
later, Commissioner O'Rielly joined me in Defiance, Ohio where 
we met with internet service providers across my district to 
discuss broadband access and availability in Northwest and West 
Central Ohio.
    Being able to go out into the community and experience 
broadband connectivity, or lack thereof, is an incredibly 
useful tool to know where we need to target precious Federal 
funding to support additional broadband growth.
    To help further inform the FCC's ability to tell where 
broadband is, and more importantly, where it still isn't, I 
introduced a bill last week with my good friend from Vermont, 
Mr. Welch, that would require the FCC to establish a challenge 
process to verify fixed and mobile broadband service coverage 
data. Local officials in my district have conducted their own 
broadband studies to evaluate their residents' broadband needs 
and prove that there are holes in the FCC maps. After hearing 
about these local actions, I started working on the ``Broadband 
Mapping After Public Scrutiny Act'' or ``Broadband MAPS Act'' 
to enhance the data the FCC already collects by involving 
additional entities, such as local and State governments, to 
verify FCC data. I look forward to hearing more about the 
Commission's mapping efforts and ways the agency is working to 
get a better picture of broadband connectivity in this country 
so that we can target the truly unserved areas.
    I also look forward to hearing about the FCC's plans to 
continue making more spectrum available for 5G. As I have 
learned, 5G requires a variety of spectrum inputs - low-band, 
mid-band, and high-band, as well as unlicensed. This is because 
each part of the band has different characteristics, and all 
types are needed to build a robust 5G network capable of 
serving this country - including rural America. The FCC cleared 
a huge swath of mid-band spectrum in the incentive auction and 
carriers are now deploying innovative broadband offerings on 
that spectrum. The Commission has also successfully auctioned 
off spectrum in the high-band and is actively working to make 
more spectrum available in the low-band and unlicensed spaces.
    Another issue with broad bipartisan support is the need to 
stop the scourge of illegal robocalls. They're not wanted. 
They're tricking people into scams. And it's costing Americans 
billions of dollars. It's one of the biggest issues I hear 
about from families in Ohio. At our hearing on this topic last 
month, it became clear that my district is not unique in these 
concerns. We must -- and we will -- do everything in our power 
to stop the annoying and illegal robocalls, while protecting 
the technology for the life-saving, pro-consumer services 
people need.
    I am encouraged by the work of industry to protect 
consumers from unwanted robocalls by developing a set of 
procedures to authenticate caller ID information associated 
with telephone calls to combat unlawful caller ID spoofing. I 
also appreciate the FCC's work in holding industry accountable 
for delivering that system to the public as early as the end of 
this year. I am optimistic that this will curb some of the 
illegal, unwanted robocalls. But, as technology continues to 
evolve, so do to the tactics that bad actors use to illegally 
spoof numbers and make fraudulent calls.
    For this reason, I introduced the Support Tools to 
Obliterate Pesky Robocalls Act or STOP Robocalls Act. My bill 
would give the FCC additional tools in its robocall toolbox to 
go after bad actors. Specifically, the STOP Robocalls Act would 
help the FCC identity these scammers and empower consumers with 
robocall blocking technology.
    I look forward to hearing our witnesses' views on how we 
can all work together to further our existing efforts on 
infrastructure, spectrum, rural broadband, and robocalls. With 
that, Mr. Chairman, I yield back.

    Mr. Doyle. The gentleman yields back.
    The Chair now recognizes Mr. Pallone, chairman of the full 
committee, for 5 minutes for an opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Chairman Doyle.
    The American people look to the FCC to ensure that they can 
reliably make phone calls, send text messages, watch TV, and 
access the internet at reasonable rates.
    They rely on these technologies to check in with loved 
ones, call for help, operate their businesses, get info during 
disasters, and engage with people across the globe.
    To properly fulfill this duty, it has always been my belief 
that the FCC must put consumers first. But over the last 2 
years, this FCC has too often turned its back on the public, 
putting the big corporate interests first.
    This FCC has heartlessly and needlessly proposed drastic 
cuts to the Lifeline program. This critical subsidy program for 
telephone and internet access is oftentimes the only way that 
low-income Americans can keep in touch with friends or family, 
explore job options, or make medical appointments.
    And then it slashed media ownership rules to allow the 
biggest media companies to grow even larger, controlling more 
and more of the news and entertainment that reach Americans and 
making it more difficult for underrepresented populations such 
as minorities and women to own or manage media companies.
    The FCC has repeatedly deferred to companies on voluntary 
measures to correct major consumer problems like robocalls or 
widespread communication failures after disasters like 
Hurricanes Maria and Michael.
    And this FCC has taken more than a year to investigate the 
widespread disclosure of real-time location data by wireless 
carriers without taking any public action to require the 
carriers to stop sharing this data.
    So putting aside bad policy, the FCC has also been derelict 
in its duty. In the first 2 years of the Trump Presidency we 
have seen this agency abdicate many of its important roles.
    For example, the Commission has, for the most part, made 
itself irrelevant when it comes to protecting Americans' access 
to the dominant communications technology of our time, and that 
is the internet.
    Even more shockingly, when the Trump administration took 
over, the new FCC deliberately walked back its role in 
cybersecurity, leaving Americans vulnerable.
    I am hopeful things will change, but I fear even if they 
do, we are starting from behind because of the decisions this 
Commission has already made.
    And finally, while it touts transparency and the importance 
of facts, this Commission, much like the Trump administration, 
has misled the public and hid some of its actions from public 
view.
    For example, the Commission recently claimed victory over 
the digital divide, only for us to later learn that the 
Commission was relying on seriously flawed data.
    According to reports, the Chairman voted to release the 
congressionally mandated broadband report knowing that the data 
in the draft was inaccurate.
    Despite what the President thinks, the truth, in fact, 
matters. Nevertheless, the Chairman recently touted a new $20 
billion infrastructure program, only for us to learn afterwards 
that it was being funded with repurposed money from the 
Universal Service Fund.
    And at the very same time, the FCC hid its proposal to cap 
that very same Universal Service Fund, limiting the support 
that goes to struggling Americans, to veterans, to schools, to 
libraries, to rural healthcare facilities, and Americans living 
in rural and hard-to-reach areas.
    Americans don't need repurposed funds and they don't need 
gimmicks. People all over this country are looking for a real 
infrastructure plan that invests in our future and strengthens 
our economy, and that is why we are introducing a comprehensive 
infrastructure package today, the LIFT America Act, that 
includes $40 billion of broadband infrastructure funding for 
unserved and underserved areas, $12 billion for Next Generation 
9 091 091, and $5 billion for financing new infrastructure 
projects.
    The American people deserve better than what this agency 
has given them. They deserve an FCC that acts in their best 
interests and not on behalf of the entities it is supposed to 
be overseeing.
    Oversight is critical to getting the FCC back on the right 
track, and I appreciate the members of the Commission coming 
before us today.
    I have faith in the FCC as an institution, and I do have 
faith in the exemplary career public servants that work there.
    [The prepared statement of Mr. Pallone follows:]

             Prepared Statement of Hon. Frank Pallone, Jr.

    The American people look to the Federal Communications 
Commission (FCC) to ensure they can reliably make phone calls, 
send text messages, watch television, and access the internet 
at reasonable rates. They rely on these technologies to check 
in with loved ones, call for help, operate their businesses, 
get information during disasters, and engage with people across 
the globe. To properly fulfill this duty, it has always been my 
belief that the FCC must put consumers first.
    But, over the last 2 years, this FCC has too often turned 
its back on the public - putting the big corporate interests 
first.
    This FCC has heartlessly and needlessly proposed drastic 
cuts to the Lifeline program. This critical subsidy program for 
telephone and internet access is oftentimes the only way that 
low-income Americans can keep in touch with friends or family, 
explore job options, or make medical appointments.
    It slashed media ownership rules to allow the biggest media 
companies to grow even larger--controlling more and more of the 
news and entertainment that reach Americans and making it more 
difficult for underrepresented populations such as minorities 
and women to own or manage media companies.
    It has repeatedly deferred to companies on voluntary 
measures to correct major consumer problems, like robocalls or 
widespread communications failures after disasters like 
Hurricanes Maria and Michael.
    The FCC has taken more than a year to investigate the 
widespread disclosure of real-time location data by wireless 
carriers without taking any public action to require the 
carriers to stop sharing this data.
    Putting aside bad policy, the FCC has also been derelict in 
its duty. In the first 2 years of the Trump Presidency we've 
seen this agency abdicate many of its important roles.
    For example, the Commission has, for the most part, made 
itself irrelevant when it comes to protecting Americans' access 
to the dominant communications technology of our time--the 
internet.
    Even more shockingly, when the Trump administration took 
over, the new FCC deliberately walked back its role in 
cybersecurity, leaving Americans vulnerable. I'm hopeful things 
will change, but I fear even if they do, we're starting from 
behind, because of the decisions this Commission has already 
made.
    Finally, while it touts transparency and the importance of 
facts, this Commission, much like the Trump administration, has 
misled the public and hid some of its actions from public view.
    For example, the Commission recently claimed victory over 
the digital divide, only for us to later learn the Commission 
was relying on seriously flawed data. According to reports, the 
Chairman voted to release the congressionally mandated 
broadband report knowing that the data in the draft was 
inaccurate. Despite what the President thinks, the truth 
matters.
    Nevertheless, the Chairman recently touted a new $20 
billion infrastructure program, only for us to learn afterwards 
that it was being funded with repurposed money from the 
Universal Service Fund.
    And at the very same time, the FCC hid its proposal to cap 
that very same Universal Service Fund, limiting the support 
that goes to struggling Americans, veterans, schools, 
libraries, rural healthcare facilities, and Americans living in 
rural and hard to reach areas.
    Americans don't need repurposed funds, and they don't need 
gimmicks. People all over this country are looking for a real 
infrastructure plan that invests in our future and strengthens 
our economy. That's why we are introducing a comprehensive 
infrastructure package today, the LIFT America Act, that 
includes $40 billion of broadband infrastructure funding for 
unserved and underserved areas, $12 billion for next generation 
9 091 091, and $5 billion for financing new infrastructure 
projects.
    The American public deserves better than what this agency 
has given them. They deserve an FCC that acts in their best 
interest and not on behalf of the entities it is supposed to be 
overseeing.
    Oversight is critical to getting the FCC back on the right 
track, and I appreciate the members of the Commission coming 
before us today. I have faith in the FCC as an institution and 
I have faith in the exemplary career public servants that work 
there.

    Mr. Pallone. I have a minute left, Mr. Chairman. I would 
like to yield back a minute to Ms. Matsui.
    Ms. Matsui. Thank you, Chairman Pallone.
    As cochair of the Spectrum Caucus, I remain focused on 
ensuring our spectrum resources are allocated effectively, 
equitably, and rapidly.
    The C-band has been one of the most complex and high-stakes 
proceedings in front of the Commission and Congress. That is 
why I plan to release legislation called the Win 5G Act to 
propose a comprise consensus-based approach to rapidly 
reallocate the spectrum in a manner that addresses many of the 
concerns raised on the Commission's record.
    I thank the wireless, cable, and rural stakeholders 
preparing to support this effort. Fundamentally, a quick, 
equitable, and consensus-based transition process is the only 
way to avoid this proceeding being slowed down or tied up in 
court.
    And I want to be clear that this chamber is not willing to 
accept an undesirable result. I look forward to working with 
all of you and all the interested parties to ensure the 
spectrum necessary for the United States to win the race to 5G 
is allocated rapidly.
    Thank you, and I yield back.
    Mr. Doyle. Gentleman yields back.
    The Chair now recognizes the ranking member of the full 
committee, Mr. Walden, for 5 minutes for an opening statement.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Good morning, Mr. Chairman. Thanks for having 
this hearing. I want to welcome all the Commissioners and, 
Chairman Pai, we are glad to have you all back.
    Commissioner Starks, welcome aboard. We are glad to have 
you here. Buckle in. It is going to be a lot of fun. So we are 
glad to have you here.
    And I know there is a lot of work being done and, Chairman 
Pai, I appreciate your leadership and that of the other 
Commissioners. I think we all have agreement we need to build 
out more broadband to more places in America, period, hard 
stop.
    We should be all for that. Last Congress we worked together 
in a bipartisan way to get that done and there is more work to 
be done.
    We passed the RAY BAUM'S Act to reauthorize the FCC for the 
first time in, I don't know, 20, 30 years. We gave you some new 
authority and we gave you new authority to go after 
robocallers, which I believe you are in the process of doing. 
Not as fast as some would like, including probably everybody in 
the room and you, but you are headed there and I think that is 
really important.
    And we are wrestling with legislation here. We haven't 
moved anything yet but, clearly, we have ideas on this 
committee about what else we need to do stop these unwanted not 
only nuisance but perhaps very risky robocallers that 
interfere, as we have heard from testimony, cancer centers in 
America spoofing that they are actually making calls from 
there. We all need to be together on this and pulling the same 
direction to put a stop to bad behavior.
    And I know in some of the meetings I have had with some of 
the carriers they are willing to lean in full force. But they 
also said, look, when we do that we are probably going to catch 
a call that isn't really a robocall, and as much as we are 
sitting up here pounding to do more, we also have to understand 
probably what you are looking at in terms of a safe harbor 
provision is really important because we will have those same 
carriers up here, pounding on them for catching what they 
thought was a robocall and it wasn't.
    And so I think we have got to be smart about how we do 
this. We got to be aggressive about how we do this. We all know 
the numbers. We all know the problem. A lot of it is offshore.
    But, clearly, there is more that can be done and there is 
more to connect the rural areas. I have done 20 town halls this 
year, more than any Member in the House, and one of them was 
out in Spray, Oregon, population 150, and they kind of do a 
little booster thing to keep the signal going while you're in 
town, which is one block.
    But the educators there said, but when we get away from 
that kids don't have connection when they go home, and I know 
that's been a huge issue for Commissioner Rosenworcel and all 
of us, I think. How do we do this?
    And I know there are funds that have been released. 
Satellite carriers say, ``We can go into these remote areas.'' 
This county, by the way, has one person for every 9 miles of 
power line.
    So this is remote. You have been out there. Others have 
been out there. And so we have got to look at alternative 
platforms that work to get in there.
    As we honor today police officers' memorial day and the 106 
officers who lost their lives, we have to remember we have got 
FirstNet building out. We have got the issue that some of you 
have raised--the diversion of 9 091 091 fees.
    We have got the whole T-band issue as well, and 
Commissioner O'Rielly, I think you point out in your testimony 
the diversion rate in one State is 90 percent. This ought to be 
mail fraud, frankly, because some communities and States are 
telling their consumers on their phone bill you are paying for 
9 091 091 when in fact they take the money and spend it 
elsewhere.
    And so I am glad you all are making a point of this because 
we need to take care of our 9 091 091 system and take care--and 
consumers ought to have a right to know that they are getting 
defrauded by their own governments, in some cases, where they 
say on your phone bill, I am taking money for 9 091 091 and, oh 
by the way, I am going to spend it somewhere else, and I am 
going to come to Washington and say, I need more money.
    That is not helping our law enforcement, and the 
politicians ought to be held accountable. So in the FirstNet 
legislation of 2012 in the Middle Class Tax Relief Act, which I 
helped to author, we did a lot to set up a system to serve our 
first responders.
    Part of the FirstNet deal included an agreement by public 
safety to receive prime spectrum for broadband in exchange for 
T-band spectrum. That was part of the agreement. I was there. I 
helped negotiate it.
    We all agreed that T-band would phased out over time once 
mission critical features are available. However, with a 2021 
start date for the process impending, concerns have been raised 
about planning for the move.
    So today, I am floating a proposal that I welcome your 
thoughts on as we reconcile these issues. My draft would delay 
the start of the T-band process for another 3 years to 2024.
    To be eligible for this delay, States and localities would 
simply need to comply with a very commonsense policy the 
bipartisan bills have already called for, which is to put a 
stop to 9 091 091 diversion.
    So you want to get a delay on T-band, got it. Stop 
diverting your 9 091 091 money and defrauding your own 
customers. So that is a draft we are putting out.
    There is a lot more we can talk about here. Look forward to 
it. We are glad you are here and, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Walden follows:]

                 Prepared Statement of Hon. Greg Walden

    Good morning, I welcome all our returning Commissioners, 
and of course our newest, Mr. Starks. I'm not sure what we 
should learn from the fact that the medical community in Kansas 
keeps producing telecom lawyers.
    I'm pleased that subcommittee Chairman Doyle has convened 
this hearing and look forward to the important discussion on 
infrastructure.
    And on this front, I very much appreciate the work of 
Chairman Pai and the Commission to accelerate broadband 
deployment, through public investment, spectrum policy, and 
just as importantly, the clearing of regulatory red tape.
    Last session, Republicans and Democrats on E&C shared a 
successful commitment to reaching unserved communities with 
broadband dollars.
    So, I'm not sure why the majority leadership chose to 
launch an all-Democrat rural broadband task force this week 
when we have worked together so productively in the past and 
shown conclusively that this is not, or at least should not be, 
a partisan issue.
    I hope this is not a bad sign for prospects of working 
together on broadband infrastructure this year. Because this is 
important.
    I recently held a town hall in Spray, Oregon, a rural 
community of about 150 people in my district. A social studies 
teacher explained during my town hall that, while the internet 
at the school is OK, he worried about the access his students 
have when they get home as education and homework become 
increasingly reliant upon the internet. Speeds and options are 
limited since they are several miles from the nearest 
commercial fiber line.
    Folks in places like Spray don't have the luxury of even 10 
megabits to support basic streaming video, or online education 
and business opportunities. With scarce Federal dollars, this 
is where our focus should be. So, I want to hear how the 
interagency consultation we legislated last year is coming 
along as we consider infusing much more than the six hundred 
million we did during the last Congress. Eliminating the 
digital divide will require a substantial investment, but focus 
is important, so we do not repeat the failures of the Obama 
stimulus plan.
    On that note, let me also highlight the role that our 
friends on the electricity side do for our rural communities. 
We need them more and more as partners in these broadband 
deployments, whether they are sharing facilities or deploying 
broadband themselves, so in the process of doing the good work 
of clearing out the regulatory red tape for 5G, the Commission 
should make sure to maintain flexibility to address safety and 
technical concerns that may come up.
    It is also imperative that we put a stop to 9 091 091 fee 
diversion so that States stop from using fees paid by consumers 
to support essential public safety services as slush funds. 
Judging from the FCC report in December, progress has been 
mixed, despite bipartisan attention to this issue. As 
Commissioner O'Rielly pointed out in his testimony, the 
diversion rate was as high as 90% in one State. This situation 
is very alarming as investment in Next Generation 9 091 091 
(NG911) is also part of the infrastructure discussion. The 
estimated cost to taxpayers starts at $10-11 billion and could 
go several billion higher according to the administration's 
cost study.
    As an author of the legislation that created FirstNet in 
2012 via the Middle-Class Tax Relief Act, I am familiar with 
the commitments and the tradeoffs we have made. What we do need 
to focus on, and the FCC can help us with today, is how best to 
ensure that any successful infrastructure effort this year will 
not be undermined by the shameful practice of fee diversion.
    Part of the FirstNet deal included an agreement by public 
safety to receive prime spectrum for broadband in exchange for 
T-band spectrum, which all agreed could be phased out over time 
once mission critical features are available. However, with the 
2021 start date for the process impending, concerns have been 
raised about planning for the move.
    So today I'm floating a new proposal that I welcome 
thoughts on as we reconcile the issues here. My draft would 
delay the start of the T-band process for another 3 years, to 
2024. To be eligible for this delay, States and localities 
would simply need to comply with a very common-sense policy 
that bipartisan bills have already called for, which is to put 
an end to 9 091 091 fee diversion.
    I look forward to hearing testimony from the Commissioners 
on these and many other important topics, and with that I 
yield.

    Mr. Doyle. The gentleman yields back.
    The Chair would like to remind Members that, pursuant to 
committee rules, all Members' written opening statements shall 
be made part of the record.
    I would now like to introduce our witnesses for today's 
hearing. Our FCC Chairman, Ajit Pai--welcome--Commissioners 
Michael O'Rielly, Brendan Carr, Jessica Rosenworcel, and 
Geoffrey Starks.
    Commissioners, welcome. We want to thank all of you for 
joining us today, and we look forward to your testimony.
    At this time, the Chair will now recognize each witness for 
5 minutes to provide their opening statement. Before we begin, 
I would like to explain the lighting system in front of you.
    You will see a series of lights which will initially be 
green at the start of your statement. It will turn yellow when 
you have 1 minute remaining.
    Please begin to wrap up your testimony when the light turns 
red--your time is expired.
    And with that, Chairman Pai, we are anxious to hear your 5 
minutes.
    Is your microphone on? We actually wanted yours to work 
so----
    [Laughter.]
    Mr. Pai. We will investigate it.
    Mr. Doyle. They are investigating it.
    Mr. Pai. Sorry for that.
    Mr. Doyle. Technology----

STATEMENTS OF AJIT PAI, CHAIRMAN, AND MICHAEL O'RIELLY, BRENDAN 
CARR, JESSICA ROSENWORCEL, AND GEOFFREY STARKS, COMMISSIONERS, 
               FEDERAL COMMUNICATIONS COMMISSION

                     STATEMENT OF AJIT PAI

    Mr. Pai. Pardon the esthetic challenges.
    But, Chairman Doyle, Ranking Member Latta, members of the 
subcommittee, thank you for holding this hearing today. I 
appreciate this opportunity to update you on the FCC's work to 
advance the public interest.
    At the beginning of my chairmanship, I said that the 
Commission's top priority would be closing the digital divide. 
We have been busy working to do just that.
    Last year, for example, we finished the Connect America 
Fund Phase II reverse auction, which allocated about $1.5 
billion to connect over 713,000 homes and small businesses 
nationwide with high-speed broadband.
    Yesterday, we gave final approval to the first batch of 
final applications and money will begin flowing to these 
auction winners by the end of the month.
    Moreover, last December, we implemented reforms to the 
FCC's Alternative Connect America Cost Model, or ACAM, that 
will fund broadband deployment to an additional 106,000 rural 
homes and small businesses.
    Earlier this month, we made new ACAM offers to small rural 
carriers that could result in over 1.1 million rural homes and 
businesses gaining access to broadband service.
    Later this year, we will begin rulemaking to establish a 
$20.4 billion rural digital opportunity fund with the goal of 
spurring deployment of high-speed broadband networks to up to 4 
million rural homes and businesses.
    The Commission is also committed to maintaining and 
advancing American leadership in 5G, the next generation of 
wireless connectivity, through our 5G FAST plan.
    This is a comprehensive strategy that takes a three-pronged 
approach of pushing more spectrum into the commercial 
marketplace, making it easier to deploy wireless 
infrastructure, and modernizing our regulations to promote 
fiber deployment.
    Over the past year, we made substantial progress on all 
three fronts and I would be happy to discuss that with you in 
greater detail later today. We have also prioritized national 
security.
    Just last week, the FCC denied the application of China 
Mobile USA, a wireless carrier ultimately and controlled by the 
Chinese government, to enter the U.S. market.
    Granting that application would have posed an unacceptable 
risk to our national security. We also recently took part in an 
international conference in Prague where over 30 nations came 
together to propose common principles for 5G security.
    These proposals gained wide support in part because of the 
close collaboration among U.S. Government agencies including 
the FCC and direct engagement on the international stage.
    The final issue that I would like to discuss this morning 
is illegal robocalls. Combating these unwanted robocalls is the 
Commission's top consumer protection priority.
    That is why we have taken many steps to fight what the late 
Senator Hollings rightly called the scourge of civilization. We 
have authorized carriers to block robocalls from certain 
spoofed numbers.
    We have authorized the creation of a reassigned numbers 
database. We have taken aggressive enforcement action against 
those who unleash robocalls on consumers and we have demanded 
that phone carriers establish a robust caller dedication 
framework by the end of this year.
    I know that this is a top concern for this subcommittee as 
well. In the last Congress, as Congressman Walden mentioned, 
you included in RAY BAUM'S Act a provision to extend the FCC's 
truth in caller ID rules to reach calls originating from 
outside of the United States.
    And last month, you held a hearing to consider many pieces 
of legislation to attack this problem. I applaud these efforts.
    The onslaught of robocalls presents us with a complex 
challenge. There is no single bullet that will get the job 
done. Instead, Congress, the FCC, the FTC, and other Government 
agencies all must do what we can, working together, to stem the 
tide of unwanted robocalls.
    In that spirit, I am pleased to announce this morning that 
the FCC will vote on our June 6th monthly meeting on 
significant new steps to reduce the number of unwanted 
robocalls.
    Specifically, I will ask my fellow Commissioners to make it 
easier for carriers to block these robocalls by default. Right 
now, many carriers let you know when a call is likely to be 
spam. But they don't block them automatically.
    I want to make clear that carriers can implement call 
blocking by default so long as consumers are given the option 
of opting out.
    I am also proposing that we allow carriers to block on a 
networkwide basis those calls that cannot be authenticated 
under the SHAKEN/STIR framework once it is implemented.
    I believe that these measures would have a major impact in 
our fight against robocalls. American consumers deserve that 
protection and peace of mind and I hope my colleagues will join 
me in supporting these efforts.
    Chairman Doyle, Ranking Member Latta, and members of the 
subcommittee, thank you once again for giving me the 
opportunity to testify. I look forward to answering your 
questions and to continuing to work with you on the matters 
within our jurisdiction.
    Thank you, Mr. Chairman.
    [The prepared statment of Mr. Pai follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Doyle. Thank you, Mr. Chairman.
    Commissioner O'Rielly, you are now recognized for 5 minutes 
for your opening statement.

                 STATEMENT OF MICHAEL O'RIELLY

    Mr. O'Rielly. Thank you, Chairman Doyle, Ranking Member 
Latta, and the members of the subcommittee. It is a real 
pleasure to appear before this subcommittee once again as it 
conducts further oversight of the FCC.
    With your indulgence, I would like to raise four areas of 
communication policy for the subcommittee's attention.
    First, there is near universal realization that far more 
needs to be done to free up additional mid-band spectrum, given 
its propagation characteristics and opportunities for global 
spectrum harmonization.
    But freeing these bands is extremely hard. Concerning what 
the Chairman has put forth in the motion, the Commission must 
redouble its efforts to reallocate additional mid-band 
frequencies for Next Generation license services.
    Part of this must be reallocating a portion of the 3.7 to 
4.2 gigahertz band, or the C-band. One of my foremost concerns 
is to ensure that the mechanism selected allows the quickest 
possible process and I remain hopeful that the satellite 
incumbents will be willing to part with closer to 300 megahertz 
of spectrum.
    Separately, there needs to be a greater effort to identify 
more Federal agency holdings in the mid-bands for commercial 
use including reallocating the 3.45 to 3.55 gigahertz band and 
conducting feasibility studies to determine the exact--the 
extent of the commercial offerings that can be done in 3.1 to 
3.45 gigahertz.
    Moreover, the Commission must take action on freeing more 
unlicensed spectrum, particularly in the 5.9 and 6 gigahertz 
bands.
    Second, while broadband availability has improved over the 
years, many unserved areas remain and we must continue our 
efforts to expand access in an efficient and timely manner.
    That is why I have spent so much time over the years 
promoting better incentives and greater efficiency within our 
Universal Service Fund programs.
    At the same time, I worry that the well-intentioned desire 
of Congress or selected agencies to expand broadband 
infrastructure will lead to unexpected wasteful or duplicative 
spending and adverse consequences for consumers.
    While I would humbly suggest that the committee consider 
the FCC's Universal Service Fund as a primary means to 
distribute new funding, it is my foremost concern that any 
funding go to unserved areas rather than areas where broadband 
service already exists.
    Coordination among agencies and departments is helpful but 
only through clear legislative directive and necessary 
oversight can Congress ensure that funding does not go to 
duplicate existing programs and only goes to those Americans 
without broadband today.
    Third, the Commission has rightfully focused time and 
attention on addressing the surge of illegal robocalls in this 
country. In considering this issue, it is important to maintain 
a careful and nuanced approach.
    Many honest legitimate businesses use automatic dialling 
technologies to communicate needed information to their 
consumers and doing so is perfectly within the scope and intent 
of TCPA.
    Any approach to illegal robocalls should not expose law-
abiding and legitimate organizations to indeterminate and 
potentially crippling legal risk.
    In terms of illegal calls, I applaud those innovative 
companies and carriers that have offered or are in the process 
of offering free call authentication and call-blocking services 
to their customers.
    To protect and encourage these initiatives, I strongly 
support the adoption of a safe harbor to protect carriers from 
liability in their call-blocking efforts as well as a 
reassigned number database safe harbor.
    At the same time, carriers must adopt expeditious processes 
for correcting false positives. The last issue that I will 
touch upon today is 9 091 091 fee diversion.
    Every month, millions of consumers pay their phone bills 
only to see a good portion of the money flow into a State or 
territory's general treasury and, as a result, only a portion 
or small percentage goes towards emergency services.
    On top of being downright deceptive, this is a serious 
public safety matter that directly affects emergency call 
centers and personnel.
    Following the FCC's December report, the States and 
territories guilty of diverting these critical funds in 2017 
were New York, New Jersey, Rhode Island, Montana, Nevada, West 
Virginia, and the U.S. Virgin Islands.
    I respectfully request the subcommittee's assistance as the 
name-and-shame process generated by our annual report has only 
been so helpful.
    The State leaders of certain recalcitrant States, 
specifically, New York, New Jersey, and Rhode Island, don't 
seem to care about the shaming part.
    I believe new legislation is needed in addition to that 
already introduced on the topic and that will take a more 
forceful approach to end diversion once and for all.
    Thank you to the chairman and the ranking member and 
leaders for inviting me to testify. I welcome any questions you 
may have.
    Thank you.
    [The prepared statment of Mr. O'Rielly follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Doyle. I thank the gentleman.
    Commissioner Carr, you are now recognized for 5 minutes for 
your opening statement.

                   STATEMENT OF BRENDAN CARR

    Mr. Carr. Chairman Doyle, Ranking Member Latta, 
distinguished members of the subcommittee, thank you for the 
invitation to testify.
    When I first appeared before the subcommittee in 2017, the 
U.S. faced significant challenges in our effort to lead the 
world in 5G.
    Our outdated rules meant that it took too long and it cost 
too much to build internet infrastructure in this country. We 
risked ceding U.S. leadership in 5G and a half a trillion 
dollars it could add to our economy to our global competitors.
    Indeed, China was putting up new cell sites, the building 
blocks for 5G, at 12 times our pace. So we needed to take bold 
action and that is exactly what we've been doing at the FCC.
    For one, we updated the Federal rules that apply to the 
construction of small cells. These are the backpack-size 
antennas needed for Next Generation connectivity.
    We did so by excluding them from the costly and time-
consuming reviews designed for the construction of large 200-
foot towers.
    For another, we addressed the State and local review 
process for small cells. We did so by building on the common 
sense reforms already enacted by elected officials in their own 
communities, reforms that provided clarity on fees and ensure 
timely decisions.
    These and other FCC reforms are already delivering results. 
Internet speeds in the U.S. are up nearly 40 percent. Americans 
saw more fiber broadband built to their homes last year than 
ever before.
    The number of small cells put up in this country increased 
from 13,000 in 2017 to more than 60,000 in 2018. Investment in 
broadband networks is back on the rise and the U.S. now has the 
world's largest 5G deployment with 92 builds expected by year's 
end, and China has announced plans for zero.
    There is much more to do. We are heading in the right 
direction. The FCC's policies are working, and I have had the 
chance to see firsthand how our decisions are helping to create 
jobs and benefit American workers in communities around the 
country in places like South Carolina where a company I visited 
last month built a new 100,000 square foot manufacturing plant 
because of the increase in demand for small cells in the U.S.
    In fact, our success in accelerating infrastructure 
construction has created a new opportunity. Industry now 
estimates that it could fill 20,000 job openings for tower 
techs. That would nearly double their existing workforce and 
bring thousands of families into the middle class.
    So last month, I announced a jobs initiative modelled on a 
program developed by Aiken Technical College in South Carolina. 
It looks to community colleges as a pipeline for 5G jobs.
    In 12 weeks, someone with virtually no training can learn 
the technical and physical skills needed to land a good-paying 
job in the tower industry. I am working to expand this program 
to community colleges around the country.
    While we know that broadband can create jobs, it can also 
help save lives. I saw this in Ohio with Ranking Member Latta 
at ProMedica Hospital. The head of neurology, Dr. Mouhammad 
Jumaa, told us that every second matters in treating stroke 
patients, and Dr. Jumaa showed us how we can now use a video 
app right on his smart phone to quickly see and treat stroke 
victims from almost anywhere. It's saving precious minutes and 
changing outcomes.
    I think the FCC should support this new trend in 
telehealth. With remote patient monitoring and mobile health 
apps that can be accessed right on your phone, high-quality 
care can now be delivered to patients wherever they are.
    That is why I have led the FCC's effort to stand up a new 
connected care pilot program. It would provide up to $100 
million so low-income patients can benefit from this new trend. 
It would make a real difference in driving down costs and 
delivering quality care. My goal is to move that proceeding 
forward in the coming months. I look forward to working with 
all stakeholders to stand it up.
    In closing, I want to thank you again, Chairman Doyle, 
Ranking Member Latta, members of the subcommittee, for the 
chance to testify. I look forward to your questions.
    [The prepared statment of Mr. Carr follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Doyle. Thank you, Commissioner.
    The Chair now recognizes Commissioner Rosenworcel for 5 
minutes for her opening statement.

                STATEMENT OF JESSICA ROSENWORCEL

    Ms. Rosenworcel. Good morning.
    Chairman Doyle, Ranking Member Latta, members of the 
subcommittee, thank you for having me here today. I am going to 
start with a story.
    So picture northeast Arkansas. This is a region known as 
the Upper Delta. It's got a proud history. It's where Johnny 
Cash spent his childhood years and where Ernest Hemingway 
penned ``A Farewell to Arms'' in a barn.
    Its fields are known the world around for the rice they 
produce. But this region is also on the leading edge of an ugly 
trend--increasing maternal mortality.
    You see, the United States is the only industrialized 
country with a growing rate of maternal mortality and the data 
show that it hits women of color and women in rural areas 
particularly hard.
    So the week before last, I was in Little Rock and I spent 
time with a team from the University of Arkansas who decided 
that in the Upper Delta it was time to do something about 
pregnancy-related deaths.
    They described a patient in the region. She was diagnosed 
with preeclampsia, and that's a hypertensive disorder that is a 
leading cause of maternal mortality.
    To manage this disorder, monitoring is key. But this 
patient lived in a rural area. In fact, she had to drive 
several hours just to give birth in a specialty hospital. There 
was no way she was going to make this same drive on a daily 
basis during the weeks following delivery.
    So this team at the medical center, they got creative. They 
sent her home with a blood pressure cuff, a special digital 
scale, and a pulse oximeter to measure the levels of oxygen in 
her blood.
    They told her connect all of these devices to a wireless 
gateway and transmit daily readings back to her healthcare 
providers.
    This was great, except for one small detail. The patient 
had no wireless service at home. As she described it, she lived 
in a dead zone. So every day after performing these rituals she 
climbed into her truck, drove up to the top of a hill a mile 
away where she was actually able to pick up a wireless signal 
and then she sent this data along.
    I cannot stop thinking about this story. It demonstrates so 
clearly the wonder of modern communications but it also reminds 
us that there are too many people in too many places in this 
country struggling to connect.
    And during the past 2 years I believe the FCC has done too 
little to address these problems. That is because too often 
this agency has acted at the behest of the largest corporate 
forces that surround us, short-changing the American public.
    For starters, we do not know with certainty where broadband 
and wireless service is throughout the country. Our broadband 
maps are a mess. One Cabinet official recently called them fake 
news.
    The FCC distributes billions of dollars each year to help 
build broadband. But it is wasteful and irresponsible for the 
agency to do so without having an accurate picture of where 
service is and is not in every community in this country.
    On top of that, we have done too little to fix robocalls. 
Here are the numbers you need to know. At the start of this 
administration, consumers got 2 billion robocalls a month. That 
number is now above 5 billion. That is insane.
    For too long, the FCC has been holding summits and holding 
workshops and not holding bad actors accountable. I am pleased 
to see that the Chairman has now distributed a new set of 
policies for us to take a look at, but I sincerely hope it is 
not too little too late.
    Perhaps, however, the agency is best known for its 
misguided effort to roll back net neutrality. As a result of 
this decision, your broadband provider now has the right to 
block websites and censor online content.
    That doesn't sound good to me and it doesn't sound good to 
the American public, either, 86 percent of whom support net 
neutrality. Should we have a court remand, I sincerely hope we 
take a cue from your Save the Internet Act and decide to change 
course.
    Finally, public safety is paramount. But this agency has 
been totally silent when it comes to press reports that reveal 
that for a few hundred dollars shady middlemen can tell you 
your location within a few hundred meters, based on your 
wireless data.
    I don't recall consenting to this surveillance when I 
signed up for wireless service and I bet neither did you. We 
need to be up front with the American people about just what's 
happening.
    But while we have been silent, I decided to do something. I 
wrote all the major wireless carriers and asked them to explain 
just when they stopped selling our data in this fashion.
    I also asked them to share with us what they are doing with 
the data that's already been sold or shared. I expect those 
letters to be responded to today and I would be happy to share 
them with this committee.
    In closing, I believe communications policy can create 
opportunity and help solve problems including maternal 
mortality. But the way to do this is for the FCC to change 
course and put the public first.
    Thank you. I look forward to answering any questions that 
you may have.
    [The prepared statment of Ms. Rosenworcel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Doyle. Thank you, Commissioner.
    The Chair now recognizes Commissioner Starks for 5 minutes 
for his opening statement.

                  STATEMENT OF GEOFFREY STARKS

    Mr. Starks. Good morning, Chairman Doyle, Ranking Member 
Latta, and members of this subcommittee. It is a privilege to 
appear before you here for the first time today.
    The future is already here. It's just not evenly 
distributed. Wise words and ones that excellently frame the 
state of our digital divide.
    I was sworn in as a Commissioner about a hundred days ago 
and I am very excited about the development and deployment of 
5G and fiber networks that will offer lightning-fast speeds and 
more.
    These networks will further open the floodgates of 
innovation and turn today's cutting-edge technology into 
tomorrow's everyday tools.
    But that future has not yet come to over 24 million 
Americans without access to affordable high-speed broadband, 
and while I am committed to winning the race to 5G, I am 
equally committed to the far too many communities that have no 
G.
    There cannot be two Americas, one where those with much get 
even more and another for those who are left behind. Whenever I 
step outside of Washington, people tell me how broadband 
impacts their lives and a couple of months ago I met with folks 
in Blue Springs, Missouri, including Chris Chin, who is the 
director of agriculture for the State.
    She told me how Missouri ranks 41st in terms of internet 
access and how farmers in their State, including her own family 
feed mill and hog farm, struggle to upload their livestock and 
crop data to the cloud to help them manage their farms.
    But she spoke even more passionately about how difficult it 
is to convince the next generation to stay in a community that 
lacks high-speed internet, and I know a lot of rural 
communities share that fear.
    The problem with broadband access isn't limited only to 
rural America, though, and an internet inequality exists even 
in well-connected urban areas where, unfortunately, your access 
to quality broadband too often depends on your economic status.
    And that is why the Lifeline program is so critical. It 
offers a no-frills phone and internet service so that folks can 
stay connected, and but rather than recognize and fully address 
the affordability problem that I think is critical, this 
Commission has proposed drastic changes to the Lifeline program 
that would undermine this program.
    The fundamental question is does this FCC know who has 
broadband and how doesn't. Unfortunately, this Commission has 
fallen down on this issue, I believe, beginning with our data.
    Just 2 weeks ago, the Commission admitted that its draft 
broadband deployment report relied in part on data from a new 
provider that had inflated its coverage by nearly 62 million 
persons, and the error was caught not by the FCC but by a 
diligent public interest group.
    We need to take a hard look at ourselves when the FCC's 
data management practices miss a brand new entrant that claims 
to cover a whopping 20 percent of Americans.
    The stakes get higher. We manage billions of dollars that 
provide targeted funding but we don't know the right places to 
send that money.
    Mobility Fund Phase II, one of our most important 
initiatives to expand rural mobile broadband coverage, was 
suspended indefinitely in December to investigate yet another 
set of data problems.
    We can't have good money chasing bad data. These 
communities can't keep waiting and they shouldn't have to. Once 
we get folks online, though, our job doesn't stop there.
    Over the last year, news reports have exposed schemes that 
exploited wireless carriers' customer data systems that allowed 
bad actors to pay to track anyone in real-time with only their 
victim's phone number and a couple hundred dollars.
    We've heard stories about women being tracked by former 
partners that appear to be exploiting this vulnerability, and 
as a former Federal prosecutor, I've personally petitioned the 
court for restraining orders to protect survivors of domestic 
abuse and I am shocked to think that an abuser could legally 
track a survivor's phone to a safe house or a shelter.
    After writing about this issue in the New York Times, I've 
heard from many members of the public who share my sense of 
outrage and I understand that at least one class action is in 
the offering.
    But more than 1 year into the FCC's investigation, we still 
have not heard a resolution. Security problems aren't limited 
to our phones. The entire telecommunications network is equally 
at stake.
    Our networks have serious vulnerabilities that bad actors 
can impersonate other folks, obtain access to sensitive 
communications, and even cause our networks to crash.
    The situation could not be more urgent. With 5G our 
networks will connect to our utilities, healthcare, financial, 
and transportation system.
    We need to take our statutory responsibilities seriously 
and ensure that all of our communications systems have the best 
possible protections.
    Finally, I would very much like to thank this subcommittee 
for its hard work and passing legislation regarding net 
neutrality. Millions of Americans have spoken with the same 
voice that they want the internet to remain open and 
unfettered, and the Save the Internet Act has given action to 
that voice.
    I will continue to also be a champion for this issue. There 
is a lot of work to do. I look forward to working with my 
colleagues to address these challenges and many more. Thank you 
for having me here today and I look forward to your questions.
    [The prepared statment of Mr. Starks follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Doyle. Thank you, Commissioner.
    So we have concluded our opening statements. We will now 
move to Member questions. Each Member will have 5 minutes to 
ask questions of our witnesses. I will start by recognizing 
myself for 5 minutes.
    Chairman Pai, I have a number of questions I would like to 
ask you that I need to get through that just require yes or no 
answers. So I would appreciate you answering yes or no.
    Regarding mobile carriers sharing their customers' location 
data, can you tell us, yes or no, has this practice stopped?
    Mr. Pai. Chairman Doyle, I appreciate the question. I 
cannot comment on a pending law enforcement investigation.
    Mr. Doyle. Can you tell us--since the statute of 
limitations for these violations is only 1 year, and a year has 
already passed since we first learned about these violations--
has the FCC put in place any tolling agreements with any mobile 
carrier to ensure that they can be held accountable for these 
illegal practices?
    Mr. Pai. Here, too, Chairman Doyle, I cannot comment on a 
pending law enforcement investigation except to say with 
respect to this particular question that we are mindful of the 
relevant statute of limitations.
    Mr. Doyle. Do you know whether or not the wireless carriers 
have notified individuals whose locations was illegally 
tracked, yes or no?
    Mr. Pai. Again, Chairman Doyle, this relates to the pending 
law enforcement investigation. I can't comment on it in an open 
setting.
    Mr. Doyle. As part of your investigation, have you found 
any members of law enforcement, agents of the Federal 
Government, or elected officials such as Members of Congress 
have had their locations tracked?
    Mr. Pai. Again, Chairman Doyle, I cannot comment on a 
pending law enforcement investigation.
    Mr. Doyle. Let me just say I find your answers to these 
questions, given the time that has elapsed and the seriousness 
of this issue as wholly insufficient.
    This committee expects you to do more than just sit on your 
hands.
    I would like to talk a little bit about C-band. As we all 
know, many members of this committee care deeply about the 
deployment of broadband to rural communities and making it more 
accessible and affordable for others.
    However, there is no business case for private investment 
the Government needs to pick up the slack. I have seen 
estimates that peg the market value of C-band upwards of $70 
billion, and for communities that currently have no Gs and see 
the promise of 5G as a pipe dream, do you think it is better 
for that money to go to funding broadband build out or into the 
pockets of foreign satellite companies?
    Commissioner Rosenworcel, what do you make of this.
    Ms. Rosenworcel. Thank you for the question.
    Mr. Doyle. Microphone.
    Ms. Rosenworcel. Thank you for the question. I think that 
we need to consult with Congress to identify what to do with 
the C-band next. It appears that there is a lot of money at 
stake and, as you point out, those funds could be used to 
expand broadband in rural areas, help students caught in the 
homework gap who don't have access to the internet service they 
need for homework.
    But I think the first place to start is to find a neutral 
entity that can tell us with clarity just how much this 
spectrum is worth. It could be tens and tens of billions of 
dollars. We need to understand that as a matter of good 
governance.
    Mr. Doyle. Thank you.
    Commissioner Starks, how about you? What do you think of 
this?
    Mr. Starks. I agree with that perspective. I think the most 
important thing is that we maximize the amount of spectrum that 
can come in here into the marketplace.
    And then the second thing that I would point out is I agree 
that it's going to be important to make sure that we don't have 
a private windfall here as we consider the C-band.
    Mr. Doyle. Mr. Chairman, what do you think?
    Mr. Pai. Chairman Doyle, I am sympathetic to the gist of 
your question. Three years ago, as the first member of the 
Commission to propose a rural dividend from spectrum auctions 
so we could retain those funds for deploying rural broadband, 
with respect to this particular issue, we've teed up a variety 
of different options we are meeting with stakeholders on.
    My concern would be with respect to waiting for Congress to 
legislate on this particular matter we've been criticized by 
some, including members of the Commission, for not moving quick 
enough to free up mid-band spectrum.
    If that's the case, waiting for legislation to emerge from 
a bipartisan--from a bicameral system along with enacting by 
the President could take some time.
    So we have to trade off the time value of the spectrum and 
the need for spectrum for broadband deployment versus some of 
the concerns you have identified.
    Mr. Doyle. Well, if you think you're getting flak for not 
moving quick enough, watch how much flak you get if you let 
four foreign satellite companies keep all the money.
    Chairman Pai, in the context of USTelecom's forbearance 
petition, I am very concerned that the Commission is using Form 
477 data, which industry and policy makers widely agree is 
flawed and overstates broadband availability. I am also 
concerned that the Commission is considering data collected as 
part of the special access data request from 2015 as part of 
this petition as well.
    This data is years out of date and does not accurately 
reflect the current state of deployment or competition. If the 
FCC were to base its decision on such inaccurate data, the 
decision would likely be challenged in court.
    Will you commit to updating and fixing these data sets 
before using them as a basis for Commission decisions, 
particularly in supported claims that competitive policies that 
promote broadband deployment are not necessary such as in the 
case of USTelecom's forbearance petition?
    Yes or no.
    Mr. Pai. Chairman Doyle, unfortunately it's not a yes or no 
question with respect to the BDS data, for example. One of the 
reasons why we included the data from the 2015 data collection 
was because USTelecom relies on the conclusions from the BDS 
and the transport remand from the Eight Circuit.
    We can't simply adopt those conclusions wholesale. We 
wanted to make sure that the data upon which those conclusions 
were based remains a part of the forbearance record in this 
particular case.
    We haven't agreed with it. We simply want to make sure that 
we have all the data that the party petitioning for forbearance 
is including in its petition.
    Mr. Doyle. I see my time has expired. Thank you.
    I now yield 5 minutes to our ranking member, Mr. Latta.
    Mr. Latta. Well, thank you, Mr. Chairman, and again to the 
Commissioners and the Chairman, thanks very much for being with 
us today.
    Commissioner O'Rielly, if I could start my question with 
you. When you were in the district in March we heard from my 
constituents to build out broadband in rural America we need 
these accurate maps so that limited Federal funds are going to 
the areas that most need it.
    How important is it that any new broadband funding is 
allocated based on these accurate maps?
    Mr. O'Rielly. So I would say maps can only be so perfect. 
But through revision and including a challenge process and 
verification we can improve them so the dollars go to only the 
areas that absolutely need them and they don't go to 
overbuilding, which is a really deep concern I have.
    So I agree with your point wholeheartedly.
    Mr. Latta. Well, I know in the past I've always said that 
we have to differentiate to make sure we are talking about 
unserved and underserved areas and we have to look at these 
unserved areas.
    Let me follow up. Which agency is best situated to manage 
substantial new funding and ensure it goes to the right areas? 
Quickly.
    Mr. O'Rielly. I hate to say I am biased here. I believe the 
FCC program is the most efficient program. It's not by any 
means perfect. It has its own flaws and we do improve it.
    The Chairman has done great work in the last couple of 
years--things I've been working on for a decade in terms of 
reverse auctions. We've really improved our process.
    I look at other agencies and what they've done in the past 
and what they currently do, and I see tremendous flaws and I 
would recommend to the--and humbly suggest to the subcommittee 
you consider FCC if additional dollars are made from the 
Congress.
    Mr. Latta. Thank you.
    Mr. Chairman, what are your thoughts on which agency is the 
most appropriate to channel those new fundings?
    Mr. Pai. Thank you for the question, Ranking Member Latta.
    Unsurprisingly, I share my colleague's enthusiasm for the 
FCC as the repository for the additional funding and part of 
the reason why I see it established is that we now have a 
reverse auction mechanism along with accountability in terms of 
the distribution of that funding resulting in broadband 
deployment.
    And with respect to the reverse auction in particular, I 
mean, I cannot understate how important that mechanism is for 
distributing funding efficiently.
    If you talk to your electric utilities, Tribal carriers, 
cable companies, satellite companies, and others, now they have 
a chance to compete for that funding, which makes sure that the 
scarce taxpayer dollars are stretched as far as possible and as 
efficient a way as possible.
    Mr. Latta. Thank you.
    Let me follow up, Chairman Pai. Last month I introduced the 
Stop Robocalls Act to give the FCC additional tools to go after 
these bad actors.
    One of the things that the Stop Robocalls Act would do is 
make it easier for consumers to access technology that blocks 
illegal robocalls by allowing carriers to offer it for free on 
an opt-out basis.
    Chairman Pai, again, I appreciate your announcement this 
morning that you are adding the opt out concept in my Stop 
Robocalls Act to your June meeting. I will continue to work on 
this with the chairman of this subcommittee so it becomes law.
    And would you commit to working with Congress to ensure 
that consumers can have access to illegal robocall blocking 
technology?
    Mr. Pai. Yes, sir.
    Mr. Latta. Thank you.
    Chairman Pai, we've also heard criticism that the 
Commission is not moving quickly enough to make low and mid-
band spectrum available, which is vitally important to U.S. 
leadership on 5G.
    Would you share what you are doing on spectrum as part of 
the 5G FAST plan?
     Mr. Pai. I appreciate the question, Congressman.
    We have, obviously, been very active with respect to 
millimeter wave. We were in the middle of a 24 gigahertz 
auction. We just finished a 28 gigahertz auction.
    We have upper 37, 39, and 47 scheduled for later this year. 
With respect to mid-band in particular, we have a lot on the 
table with respect to white spaces in the 2.5 gigahertz band.
    We have an ongoing dialogue with the Department of Commerce 
on the 3.1 and 3.55 band. We've got the 3.5 band itself, which 
Commissioner O'Rielly will lead the effort on, where we expect 
commercial deployment soon and an auction next year.
    The 3.7 band, which the chairman has mentioned, which will 
be potentially 200 to 500 megahertz, we also have an 
outstanding proceeding on the 4.9 gigahertz band, the 5.9 
gigahertz band, and in particular the 6 gigahertz band, which 
is something that a lot of wireless innovators have thought of.
    This would be, potentially, 1,200 megahertz for unlicensed 
spectrum. So turbocharging Wi-Fi, allowing consumers on an 
unlicensed basis to take advantage to some of the innovation 
that has now become common in their lives.
    So we have a lot on the table, many thousands of megahertz, 
and we look forward to working with you and the members of the 
subcommittee to make it a reality.
    Mr. Latta. Well, thank you very much, and if I, in my last 
40 seconds--Commissioner Carr, you know, you spent a day out in 
my district and maybe if you could just give me a quick 
takeaway of what you saw out there in your five visits across 
the northwest and west central Ohio.
    Mr. Carr. Thank you, Congressman.
    We had a great visit to your district. I think what we saw 
there was both sides of the digital divide. We saw communities 
that right now have high-tech Next Generation connectivity 
including at ProMedica Hospital where it is helping to change 
lives for stroke patients.
    We were able to go to a farm in Napoleon and see the 
tremendous amount of data that smart ag is now pulling off of 
combines and connected soil moisture meters, and so the real 
economic upside.
    There are many communities in between where we still have 
work to do and that's why we are reorienting our programs at 
the FCC including universal service to make sure we have 
connectivity whether it's 5G or other next generation services 
in every community across the country.
    Mr. Latta. Well, thank you very much.
    Mr. Chairman, my time has expired and I yield back.
    Mr. Doyle. The gentleman yields back.
    The Chair now recognizes Mr. McNerney for 5 minutes.
    Mr. McNerney. I thank the chairman. I thank the 
Commissioners for your testimony this morning and for your hard 
work. I know all of you have perspectives and I appreciate 
that.
    Chairman Pai, the FCC recently delivered its veterans 
broadband report to Congress pursuant to legislation that I 
signed into law but missed the statutory deadline by over a 
month.
    While the report did acknowledge that 1.3 million veterans 
participated in the Lifeline program, it failed to mention that 
your proposal to reduce the program by over 70 percent would 
have harmful effects on these veterans.
    I am concerned that your proposal would have harmful 
impacts on veterans and millions of Americans including 56,000 
households in my district.
    There has been almost no support on the record for this 
proposal, even though the proceeding was started in 2017. 
Chairman Pai, please answer yes or no.
    Will you put this proposal to rest and end the proceeding?
    Mr. Pai. Congressman, the proceeding is still ongoing. We 
haven't made any final determinations yet.
    Mr. McNerney. Will you put this to rest? There is almost no 
support in the record for this.
    Mr. Pai. Again, Congressman, it's still an ongoing 
proceeding. I can't forecast where the Commission is going to 
end up.
    Mr. McNerney. Commissioner Rosenworcel, what do you think 
about his?
    Ms. Rosenworcel. There are people across this country that 
rely on Lifeline to stay connected. They've relied on this 
program since 1985 when it was first put in place to make sure 
everyone could connect to healthcare, to education, and jobs.
    We are going to cut off veterans, elderly, people 
recovering in Puerto Rico and so many other places if we cut 
this program as the Chairman has proposed. It's time for us to 
end this proceeding and this effort.
    Mr. McNerney. Thank you.
    Mr. Chairman, I have a letter--I would like to submit a 
letter for the record on this issue from the Leadership 
Conference.
    Mr. Doyle. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. McNerney. I am deeply concerned about President Trump's 
repeated attacks on journalists and broadcasters. Here is a 
tweet from the President on April 5th stating that the press is 
truly the enemy of the people. This is from the President of 
the United States.
    The President has gone on to threaten the license of 
broadcasters who have reported news that he doesn't like. 
That's one of--rhetoric of a dictator and beneath the dignity 
of the office of our President.
    Chairman Pai, a free and independent press is the 
foundation of our democracy. You are the head of the agency 
that is charged with overseeing the Nation's communication 
sector including broadcast and media marketplace.
    Starting with you, Chairman Pai, and then all the 
Commissioners, do you agree with the statement that the press 
is truly the enemy of the people? Please answer with a yes or 
no.
    Mr. Pai. Congressman, that is not language that I would or 
have used. No.
    Mr. O'Rielly. No.
    Mr. Carr. Congressman, I have repeatedly made my views 
clear on the First Amendment.
    Mr. McNerney. Thank you.
    Ms. Rosenworcel. Absolutely not.
    Mr. Starks. I agree this is an easy choice. Absolutely not.
    Mr. McNerney. Thank you.
    Chairman Pai, just 1 week after that tweet on April 5th, 
you appeared at a press conference at the White House with 
President Trump. It's unusual for a Commissioner from an 
independent agency to appear at a press conference with the 
President.
    Please answer this with a yes or no. When you saw President 
Trump on that day, did he mention anything to you related to 
FEC license concerns or any other issue pending before the FCC 
related to an entity he thinks unfairly covered him or his 
administration?
    Mr. Pai. No, not to my knowledge.
    Mr. McNerney. Will you commit that if President Trump or 
anyone from the White House reaches out to you about anything 
like this that you will personally notify our committee and my 
office immediately?
    Mr. Pai. Yes, and I've made, I recall, a similar commitment 
to the Senate Commerce Committee, your counterparts on the 
Senate side.
    Mr. McNerney. Thank you. We will hold you to that, 
Chairman.
    On the spectrum, I know that having access to mid-band 
spectrum is crucial for U.S. leadership in 5G.
    Commissioner Rosenworcel, why has the agency not moved more 
quickly to address the issue of the 3.5 band?
    Ms. Rosenworcel. Thank you.
    The rest of the world is running to 5G using mid-band 
spectrum. We are not doing that there in the United States and 
we are going to be left behind. Mid-band spectrum propagates 
far, which means it will bring 5G to rural areas.
    But the United States has concentrated all of its energies 
on high-band spectrum in the last year and this one. We are 
going to have to pivot and make mid-band a priority if we want 
to catch up with the rest of the world and deliver 5G to rural 
communities.
    Mr. McNerney. Thank you, Commissioner.
    Mr. Chairman, I yield back.
    Mr. Doyle. The gentleman yields back.
    The Chair now recognizes the ranking member of the full 
committee, Mr. Walden.
    Mr. Walden. Thank you, Mr. Doyle. Chairman in exile, as I 
like to say.
    [Laughter.]
    Mr. Walden. We have heard a lot today about the need to 
protect privacy of mobile customers. I don't think there is any 
disagreement with that on the Commission or up here.
    I share my colleagues' concerns about the unauthorized use 
of wireless consumers' real-time geolocation data by third 
parties. That is why as chairman I started the bipartisan 
process--bipartisan process here with my Democratic colleagues 
last Congress that's still going on this year to look into this 
matter.
    From the consumer's perspective, sharing location data can 
be helpful and in some cases lifesaving--services like 
emergency roadside assistance. So there can be a positive 
effect to this.
    But from our bipartisan work on this issue, we learned that 
in some cases aggregators were selling data for unauthorized 
purposes without permission from either the consumer or the 
carrier.
    The FCC is taking a deeper dive into this issue through its 
enforcement bureau, is my understanding, but the reality is 
that many carriers have already completely cut off these 
programs and they aren't coming back.
    The alternative many of these services are now going to is 
the location data collected by tech companies, operating 
systems, and apps that are constantly tracking users.
    The data are different and in many cases they're actually 
more pervasive and more precise. Not a few meters or hundreds 
of meters; it is what seat you're in.
    My concern is the entire market for location data is being 
shifted to relatively unregulated entities. Is this really the 
best outcome for the consumer is the question I have.
    So, Chairman Pai, you're investigating the interactions of 
carriers with location aggregators. Does the Commission have 
the authority to regulate data aggregators in these situations?
    Mr. Pai. We do not. Typically, that would be under the 
jurisdiction of the Federal Trade Commission.
    Mr. Walden. And can the Commission look into the sharing of 
geolocation data by other entities such as operating systems 
and apps?
    Mr. Pai. Here too we don't have jurisdiction over some of 
the tech giants that have collected that information.
    Mr. Walden. Commissioner O'Rielly, in your testimony you 
highlight additional mid-band spectrum the FCC should be 
considering for unlicensed use to support 5G including the 4.9 
gigahertz band.
    We have got a new discussion draft which would have the 
Commission conduct a census of the users and how they are 
utilizing 4.9 licenses and would separately provide a delay in 
the T-band relocation process for another 3 years.
    You often hear Governors or legislators don't get the 
message on 9 091 091 fee diversion. So the other feature here 
is to tie the eligibility for the T-band delay to the integrity 
of the 9 091 091 fees.
    I know you have put a lot of work into this. You talked 
about it in your opening statement as well. Do you think we are 
on the right path?
    Mr. O'Rielly. Well, sitting here I am really intrigued by 
your idea. There haven't been a lot of new ideas on how to 
address those recalcitrant States--New York, New Jersey, and 
Rhode Island.
    Mr. Walden. Rhode Island especially.
    Mr. O'Rielly. So I am really intrigued by this that maybe 
what--the kick that is needed.
    Mr. Walden. I will tell you what. If a business did this it 
would be mail fraud and I--government is a business, too, and 
they ought to be held accountable. But I think it's actually 
worse than the fraud that is being committed because they are 
denying rate payers the service they are promising them and you 
all ought to be united in this cause.
    Does anybody disagree with what we are trying to do here?
    All right. I am going to take all the shaking heads as 
yeses and move on, because I just think it is really, really 
critical.
    Now, I want to talk about the role of what you are doing to 
build out especially 5G and all, and I appreciate the work you 
are doing. I met with some of my rural electric co-op friends 
and they are a little concerned about the effect of some of 
what the FCC is doing when it comes to their equipment and 
services and, literally, can this pole withstand that weight 
and this, that, and the other.
    And I assume you are taking that into some level of 
understanding, right?
    Mr. Pai. Yes, Congressman. And, additionally, we have 
reached out in particular to those utilities to participate in 
those reverse auctions I described.
    Mr. Walden. All right. Perfect.
    I want to go to this mapping issue. There is no 
disagreement the maps that are used stink. I mean, somebody 
said fake news. We have all known that. By the way, it happened 
in the last administration, the one before it.
    I sat right on this side in the minority when the majority 
crammed through the stimulus bill and put $7 billion for 
broadband knowing full well the money was going to get 
allocated before we knew where the mapping was for served and 
unserved.
    And I had an amendment saying before the money goes out the 
door, could we at least know the unserved and underserved areas 
through mapping and that amendment was defeated by my friends 
over here.
    So we both know on both sides the maps stink, the data 
stink. We got to get this right and not overbuild, and I would 
just like to say, finally, that we should not discount--and I 
know there are some that just want to trash corporate America 
or the ISPs or whatever--they are investing far more than this 
Congress has ever invested.
    In the cable world they announced last night $290 billion 
over the next decade to build out connectivity--broadband to 
the home.
    And so I think we need to be in a partnership attitude 
here, not an adversarial attitude. There's a lot more we can 
get done on this committee when we are working together on 
these issues. Broadband shouldn't be partisan.
    So thank you for being here. Thanks for the work you do. I 
know it's controversial but we want to be your partners.
    With that, I yield back.
    Mr. Doyle. The gentleman yields back.
    The Chair now recognizes the chairman of the full 
committee, Mr. Pallone, for 5 minutes for questions.
    Mr. Pallone. Thank you, Mr. Chairman.
    I just--I just wanted to express my concern that, once 
again, on the eve of an oversight hearing, a number of Members 
finally receive answers to letters sent to the Commission, and 
it should not take scheduling a hearing to get a response from 
the FCC.
    Even when we have gotten responses, the answers have often 
been incomplete or not followed the instructions that we gave 
in the letters, and I hope that this isn't an attempt to delay 
this committee's oversight.
    So I just wanted to ask each Commissioner, yes or no, clear 
commitment from each of you--going down the line--to avoid this 
in the future.
    So yes or no, will you commit to responding in a timely 
manner and following the instructions to Members' oversight 
letters, starting with the Chairman.
    Yes or no?
    Mr. Pai. Yes.
    Mr. Pallone. Thank you.
    Mr. O'Rielly?
    Mr. O'Rielly. Yes.
    Mr. Pallone. Mr. Carr?
    Mr. Carr. Yes, happy to respond.
    Mr. Pallone. Thank you.
    Ms. Rosenworcel?
    Ms. Rosenworcel. Yes.
    Mr. Pallone. I always mispronounce your name.
    And Mr. Starks?
    Mr. Starks. Yes.
    Mr. Pallone. All right. I hope so. Thank you. Next.
    Chairman Pai, as you know, putting a stop to the 
overwhelming number of robocalls Americans receive daily is a 
top priority of mine and many members of the committee.
    This subcommittee in fact held a legislative hearing on my 
bill and a number of other legislative efforts to curb 
robocalls last month and I appreciate that in your opening you 
focused on this issue.
    But as I noted in my opening statement, voluntary measures 
spurred by the FCC don't have a good track record and I fear 
aren't going to solve the robocall problem. So that is why in 
my bill the Commission would be required to ensure all carriers 
implement some sort of call authentication protocol.
    And I know you have been an advocate of similar technology 
but, again, it seems to be adopted on a voluntary basis.
    So will you commit to issuing an order by year end that 
requires, not, you know, hopes or volunteers but requires 
carriers to implement call authentication technology?
    Yes or no.
    Mr. Pai. Mr. Chairman, I can't--I share your commitment. I 
have said that, if they don't implement it this year, we will 
take regulatory intervention under the Administrative Procedure 
Act.
    I can't commit to finishing that proceeding, but we will 
take regulatory action if----
    Mr. Pallone. Right. But my concern is not only over the 
time period but also over the fact that it's not enough to 
demand it or pressure the carriers because I consider that 
voluntary.
    I want a requirement. So let's forget--let's put aside the 
time. Will you require it?
    Mr. Pai. If they do not implement call authentication under 
the SHAKEN/STIR framework, yes, we will.
    Mr. Pallone. OK. And then what did you say about year end? 
Will you try to meet that?
    Mr. Pai. Absolutely, Congressman.
    Mr. Pallone. All right.
    All right. Now, let me ask--let me just go to a last series 
of questions--I know my time is running out--about the 
resiliency of our wireless and broadband networks.
    The FCC had a report recently following Hurricane Michael 
that raised real questions about the effectiveness, again, of a 
voluntary network resiliency framework.
    I have repeatedly asked the Commission to update the 
framework but I haven't gotten a response to that. This recent 
report indicates a need, in my opinion, for binding 
requirements on carriers--again, binding, not voluntary.
    So let me ask Chairman Pai. The FCC is currently re-
examining the voluntary wireless resiliency cooperative 
framework. Will you commit to creating enforceable requirements 
to protect consumers in the face of future disasters, yes or 
no? Not just voluntary.
    Mr. Pai. Mr. Chairman, on this one I can't answer yes or 
no. The career staff and the Public Safety Bureau is actively 
working on that. I would be happy to keep you apprised of our 
efforts and if----
    Mr. Pallone. But I am not--I am asking basically that you 
make a commitment definitively to create an enforceable 
requirement--some sort of enforceable requirement--because 
otherwise I don't think anything happens.
    You don't have to tell me how but I want an enforceable 
requirement. Can you say yes to that?
    Mr. Pai. Mr. Chairman, I certainly share your concern about 
this problem with respect to that framework. It is currently--
carriers don't have to participate in it and so we want to make 
sure that we ensure that they are adopting the best practices. 
But we would be happy to look at the mandates that you are 
suggesting.
    Mr. Pallone. Well, can I ask that you try to make it 
enforceable?
    Mr. Pai. I would be happy to consider that, Mr. Chairman. 
We share that consideration.
    Mr. Pallone. I think that is not--that is not much of a 
commitment, Mr. Chairman.
    After Hurricane Michael, the FCC issued very stern messages 
to the carriers asking them to waive charges and fees for 
customers affected by outages.
    Did you--let me ask the Chairman--did you make even these 
types of bare minimum public statements to carriers serving 
Puerto Rico after Hurricane Maria, yes or no?
    Talking about you waiving the charges and fees. You did 
that for Michael. Was it done for Maria?
    Mr. Pai. Mr. Chairman, I personally went to Puerto Rico 
twice in the wake of Hurricane Maria and Irma, and you can ask 
the Governor of Puerto Rico. You can ask the congresswoman from 
Puerto Rico.
    Mr. Pallone. Yes, but what about waiving the charges and 
fees for customers affected?
    Mr. Pai. In addition to delivering $1 billion to the people 
in Puerto Rico through the Uniendo a Puerto Rico Fund, we took 
many other steps to make sure consumers were----
    Mr. Pallone. Well, you didn't--again, you're not saying 
whether you actually did that with regard to waiving the 
charges and fees. I don't want to get into it, Mr. Chairman.
    But I am just very concerned about, you know, the FCC's 
response to Hurricane Maria has not been adequate. But we will 
have to deal with that another day.
    Thank you, Mr. Chairman.
    Mr. Doyle. The gentleman yields back.
    The Chair now recognizes Mr. Olson for 5 minutes.
    Mr. Olson. I thank the Chair, and welcome to the entire 
FCC. A special welcome to Chairman Starks. This is your first 
hearing that I've been here. Congratulations. Glad to have you 
here.
    And a special recognition to Chairman Pai. You are a man of 
your word. You may recall the last time you came before this 
committee we found out that Mr. Carr climbed up a tall cell 
tower. I challenge you as a chairman of the committee to act 
and lead and, my friend, you did it.
    Apparently, on August 27th of last year, you climbed up a 
131-foot tower in Colorado. So thank you for keeping your word, 
and it was pointed out earlier Mr. Carr climbed up a 1,000-foot 
tower. So you have 900 feet to go to catch up with Mr. Carr.
    [Laughter.]
    Mr. Pai. My wife still hasn't forgiven you or him for 
goading me on.
    Mr. Olson. My hometown of Sugar Land, Texas, had a mini 
Harvey Hurricane last week. Had nine inches of rain in less 
than 2 hours. Our streets were flooded all across the city and 
across Fort Bend County. The Brazos River rose very high.
    As you know, viable communications are critically important 
during disasters like floods and hurricanes. You guys have done 
a great job on all these alerts that go out--emergency alerts.
    During Harvey just got spammed with alerts. Tornadoes that 
are 30 miles away and opening--coming--sent to me, all we got 
this time was what was relevant to Sugar Land, Texas. So that 
is well done.
    As you know, communication are important during a storm for 
first responders and families trying to get information--should 
they evacuate, is that road flooded, are the hospitals open. 
They made great progress, but as you know, in 16 days the 
Atlantic hurricane season starts. How is the Commission 
preparing for the upcoming storm season?
    Mr. Pai. I appreciate the question, Congressman.
    In a variety of ways, and I've had a chance to see some of 
the great work in your district. I saw Sugar Land after 
Hurricane Harvey, visited Harris County 9 091 091, visited the 
local NBC station that stayed on during the storm to keep 
people apprised.
    So we've taken a number of steps. One is by putting out a 
number of best practices, recommendations for everybody to use 
in advance of a hurricane. We have also been working 
cooperatively with the entire industry, not just communications 
providers but power companies and others, do encourage them to 
work together.
    We have been working on updating our wireless emergency 
alert system to be more targeted so that people in this 
particular neighborhood get the information they need.
    Mr. Olson. And I saw it firsthand last week. You guys did 
that magnificently. Thank you so much.
    Mr. Pai. The credit goes to our fantastic career staff at 
the FCC and the Public Safety Bureau and the Wireless Bureau 
for helping make that happen.
    But we are looking forward to making sure that we equip 
public safety officials, first responders, and communications 
companies and others with all the tools they need. We don't 
want to see an active hurricane season. But if history is any 
guide, it, unfortunately, might be.
    Mr. Olson. It is coming.
    The next question is for you, Commissioner Pai. In your 
testimony you mentioned that there has been a problem in Texas 
with a overbuilding of what is called the E-rate program.
    This is a program that is supposed to provide affordable 
access to advanced telecom services for schools in mostly poor 
parts of the State, mostly rural parts of the State.
    You sent a letter to a group called Universal Service 
Administrative Company--the USAC. These are the people who 
approve E-rate funds for Texas schools--for approving funds for 
schools that already have access to fiber networks. So, in 
effect, they're double dipping, taking money from the program 
that is supposed to create these networks but they already have 
them.
    Can you share with us your actions you have taken and the 
response you have gotten through your questions about the E-
rate program in Texas?
    Mr. Pai. I appreciate the question, Congressman.
    My understanding is that Commissioner O'Rielly sent the 
letter. So I might defer to him in the first instance to----
    Mr. Olson. I am sorry.
    Mr. O'Rielly, I understand the question was for you. My 
apologies.
    Mr. O'Rielly. That is OK. Thank you, Congressman.
    So you are right, I did write to USAC on this specific 
issue to try to get to the--whether E-rate dollars are being--
overbuilding our high cost fund as I met with a number of Texas 
representatives and it turns out the USAC came forward and said 
yes, it is happening.
    We can't tell you how much but we can tell you that it is 
happening because they came forward with the lowest bid and it 
was a competitive process. And my answer is, well, they haven't 
taken everything into account and they have also manipulated 
the process to make it the lowest bid.
    So I am in the process of trying to figure out how to best 
address that, and I have to have conversations with the 
Chairman on whether we need to change the rules so USAC 
reflects what's happening in the marketplace today.
    Mr. Olson. Thank you. If I can help in any way, let me 
know.
    Last question, very quickly, for you, Commissioner Pai. 
Other members of the committee right here don't think the FCC 
is doing enough to stop robocalls. You guys have this upcoming 
summit on robocalls.
    What do you expect that summit to do to show you guys have 
been, are, and working hard to stop robocalls?
    Mr. Pai. I appreciate the question, Congressman.
    It is going to do two basic things. Number one, recognize 
the progress that has been made by other carriers who have been 
developing and implementing the SHAKEN/STIR framework, and 
number two, calling out those who have not done the requisite 
work, who are not on track to meet the Commission's expectation 
that they implement call authentication this year. We want to 
know who's making progress and who is not.
    Mr. Olson. A final challenge to the whole Commission. 
There's a 2,000-foot tower in Missouri City, Texas--Texas 22. 
If you want to come climb it, I am all in.
    I yield back.
    Mr. Doyle. The gentleman yields back.
    Now I would like to recognize the vice chair of the full 
committee, Ms. Clarke, for 5 minutes.
    Ms. Clarke. Thank you very much, Mr. Chairman, and I thank 
our ranking member for convening this subcommittee hearing 
today on the accountability and oversight of the Federal 
Communications Commission.
    It's nice to have full bench before us today. All five of 
our FCC Commissioners are here, and I would like to give a 
hearty welcome to our newest Commissioner, Geoffrey Starks.
    Chairman Pai, I've written you a letter dated May 9th 
regarding my concerns about a proposed rulemaking in the matter 
of the implementation of Section 621(a)(1) of the Cable 
Communications Policy Act of 1984 as amended by the Cable 
Television Consumer Protection and Competition Act of 1992.
    In particular, the proposed reinterpretation of franchise 
fee to include cable-related in-kind contributions in the 
definition.
    You know, Congress set up the 1984 Cable Communications Act 
to compensate communities for the use of their property and 
public rights of way and to provide local PEG stations the 
ability to meet the information needs of Americans.
    I, along with a number of my colleagues, have urged you not 
to harm local communities in this rulemaking and as vice chair 
of the committee I joined them in expressing my concern that 
these proposed rules will harm communities in my district and I 
will be closely monitoring the process to ensure that PEGs are 
held harmless.
    Chairman Pai, last week Senator Van Hollen I wrote to you 
about the FCC's Form 395-B, a wonky name for what is a critical 
issue for people of color.
    Your agency has a statutory mandate to collect information 
about broadcasters' racial, ethnic, gender diversity in the 
workplace. But it has been 15--let me say it again--15 years 
since the FCC has required broadcasters to submit a Form 395-B 
disclosing their workforce diversity.
    How can we work to solve the disparities in the workforce 
without a complete picture of the data? Now, I understand that 
the FCC has been working to address some issues about the form. 
But I would like to find out how to resolve those issues and 
how we can move forward.
    And I understand that a draft NPRM on these issues is 
currently in circulation. Does it include an action to refresh 
the record on the stalled 395-B issues?
    Mr. Pai. I appreciate the question, Congressman, and your 
leadership on these issues, a goal that I share of getting more 
diversity of ownership into the broadcast sector.
    As you pointed out, that proceeding has been pending for 
some 15 years due in part to some constitutional and statutory 
obstacles that our general counsel's office for many years has 
flagged and that chairs of various parties over the past 15 
years have recognized.
    Nonetheless, as you pointed out, we have a pending notice 
of proposed rulemaking to target overall issues with the Equal 
Employment Opportunity in broadcast framework and I look 
forward to working with my colleagues to finalize that notice 
of proposed rulemaking and release it so that we can work 
together.
    Ms. Clarke. Mr. Starks, can I get your take on this?
    Mr. Starks. Yes. Thank you so much for your leadership on 
this issues, Congresswoman, and from behind the camera to in 
front of the news we need to make sure that we have diversity 
that looks like America--the cross section of America.
    It is deeply important. That is why I asked the Chairman to 
make sure that we did refresh the record on this 15-year-old 
rulemaking.
    And the thing that I would say is in making that offering I 
am happy to hear from commenters that there are constitutional 
issues. I would like those to be raised--would love to hear the 
merits there.
    What I am asking the Chairman to do and what I have asked 
him and will repeatedly ask him to do is make sure that that 
issue gets the attention it deserves and then we can have a 
full record built, and then we can close this out. That's just 
good government.
    Ms. Clarke. Well, let's make this a priority. It's becoming 
more and more increasingly clear to the American people that, 
particularly in front of the cameras, that diversity is really 
lacking.
    Chairman Pai, the FCC sent out a consumer alert last week 
about so-called one-ring scams. Beyond alerting the public to 
the scam, which I am glad you did, is there another action the 
FCC can take to ensure consumers don't fall victim to these 
scams?
    Mr. Pai. I appreciate the question, Congressman--
Congresswoman, rather. That advisory has proven very useful. 
We've gotten a lot of consumer feedback--positive feedback on 
it.
    Ms. Clarke. And what else can we do?
    Mr. Pai. But we are not stopping there and that's why the 
proposal I announced this morning to allow carriers to block 
calls by default--robocalls--I think would be a significant 
step.
    Right now, because of legal uncertainty over whether it's 
consistent with the FCC's rules and regulations, some carriers 
have only allowed those call-blocking tools if the consumer 
affirmatively opts in. Very few consumers do. And so as a 
result, companies have not developed the technology fully, 
certainly have not deployed it fully.
    Ms. Clarke. Commissioner Rosenworcel, your take on that?
    Ms. Rosenworcel. Look, I used to think it was Rachel from 
card member services I hated most and then I thought it was 
that IRS individual with the imminent threat of lawsuit.
    But none of us should have to choose. It is crazy the 
number of scams that are coming in over our phone. Whatever 
we've done to date with robocalls it is not enough.
    We need call authentication technology. Every carrier 
should make free tools available to consumers and the FCC 
should set up a robocall division because consumers are angry 
and that's where we get the bulk of our consumer complaints.
    Ms. Clarke. I yield back. Thank you, Mr. Chairman.
    Mr. Doyle. The gentlelady yields back.
    The Chair now recognizes Mr. Bilirakis for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it.
    I want to follow up on Mr. Olson's question with regard to 
the hurricanes. As you know, just last week, the FCC released 
its report, Mr. Chairman, on Hurricane Michael recovery and I 
appreciate that you actually went down to see the devastation 
over there.
    So one of the key findings of this states that many of the 
communications systems were repaired reasonably quickly and I 
appreciate that, only to be, unfortunately, subsequently and 
accidentally taken down by debris clean-up crews, 
unfortunately.
    Again, Chairman Pai, I also understand, again, you toured 
the area and the damage, which is great. What issues did you 
see on the ground and what are the best practices to help 
ensure that the delays with recovery from Hurricane Michael do 
not happen again?
    Mr. Pai. I very much appreciate the question, Congressman.
    There were a number of lessons that we learned. Number one, 
there needs to be better prearranged roaming agreements among 
the carriers to ensure that if one network goes down consumers 
are able to get connectivity.
    Another one was making sure that companies that are in the 
communication space communicate with those in the power space 
and vice versa.
    One of the biggest issues I heard when I was in Mexico 
Beach was the fact that some of the fiber crews out there that 
were going around making sure the fiber lines were back up and 
running they would do their work and then there might be a 
fiber cut a hour or two after because the power crew would come 
through with an augur perhaps and snipped that fiber.
    So I want to make sure that those folks are on the same 
page. Ultimately, we all have the same goal getting energy and 
getting comms back up and running quickly. Making sure they're 
on the same page is a critical part of that.
    Mr. Bilirakis. So you think in this respect we are ready? 
Because, I mean, hurricane season is upon us.
    Mr. Pai. I think we are in a much better position than we 
were. For example, recently I visited Georgia Power down in 
Atlanta and one of the things they observed is that they do 
have a much more integrated relationship with all the 
communications providers in their service area.
    And so I think we are much more aware of the situation and 
I think both the carriers and the energy companies have taken 
that to heart.
    Mr. Bilirakis. That's good to know. Thank you.
    Again, Chairman Pai, many of our veterans, retirees, and 
other Americans with hearing loss--I am one of them--rely on 
the IPCTS service that they--that you administer. Currently, 
you're considering allowing fully automated speech recognition 
to replace humans in ensuring accuracy of the service.
    I am concerned that such action could result in inferior 
service as the testing already done does not replicate real-
world conditions. Again, Mr. Chairman, would you commit to 
additional study and testing before you certify any ASR on the 
provider or service?
    Mr. Pai. I appreciate your concern, Congressman, and that's 
why in our proposal we make clear that before we grant any 
certification to an IPCTS provider that provider has to ensure 
that any ASR technology they use meets the mandatory minimum 
standards for service, that those with disabilities who rely on 
that service would require.
    So yes, that is built in to make sure that the service is 
top notch.
    Mr. Bilirakis. That's so very important and, again, if it's 
not right and it's just not going to work--it's not suitable--
and we'd have to have somebody with hearing loss actually test 
it to make sure that it's actually performing well.
    So I appreciate you doing that, and if you could follow up 
with us to make sure that happens I would appreciate it.
    Thank you very much, and I yield back, Mr. Chairman.
    Mr. Doyle. The gentleman yields.
    The Chair now recognizes Mr. Loebsack for 5 minutes.
    Mr. Loebsack. Thank you, Mr. Chairman. I want to thank 
Ranking Member Latta also for having this hearing today. A lot 
of great issues that we are discussing here--very significant 
issues.
    I continue to have significant concerns about the accuracy 
of broadband maps and I think many of my colleagues share that 
concern as well.
    Chairman Pai, I know we've talked about this in the past. 
You have spent some time up in northwest Iowa. I remember 
talking to you about dropped calls and all the rest from--
between Sioux City, my hometown, and I think it was 
Worthington, Minnesota--up that way.
    Commissioner Rosenworcel, you spent some time in my 
district. I am glad you mentioned Baxter first. That's the 
smaller of the two towns, Baxter and Newton. Thank you. We 
talked about the homework gap, any number of things, when you 
were there.
    And everybody here knows the business case for deployment 
is really hard to make in a lot of these areas and that's a big 
part of why we have these problems in the first place.
    It's one of the many reasons I am proud to, again, be an 
original cosponsor of Chairman Pallone's LIFT America Act 
because this works toward that goal, making sure that we get 
broadband out, we get sufficient cell service for all these 
folks as well.
    And we have to make sure that we know where there's good 
service and where there isn't in the first instance, why--
Congressman Costello is no longer with us--and I worked on our 
bill to make sure that we have good maps.
    And in the interest of getting more accurate maps, what do 
you think of a challenge or validation process to help improve 
the accuracy of broadband maps? I know there are several 
private companies like Ookla and Microsoft that have compelling 
about who isn't served out there and I think there are 
nonprofits working on this as well.
    But even further, I think there's an opportunity for 
individual citizens to challenge these maps that misrepresent 
the service they receive.
    And I want to start first with you, Commissioner 
Rosenworcel. I would like to start with you. What do you think 
about third party challenger verification process when it comes 
to mapping?
    Ms. Rosenworcel. Thank you for the question. I agree with 
you. Our maps are a mess and we are not going to fix them 
sitting here alone by ourselves in Washington.
    We have to go out and get the lived experience of the 
American people who know where they get service and where they 
don't get service, and we have to find a way that that kind of 
crowd sourcing and challenge can come into our process, because 
the best map is not going to be built by the people at this 
table. It's going to be built by the American public.
    Mr. Loebsack. And Commissioner Starks, thank you for 
joining the Commission. Did you want to respond to that as 
well?
    Mr. Starks. Yes, I agree, and making sure that we have 
accurate data--validated data--is going to be critically 
important. I know there are parties out there that are very 
interested.
    Obviously, it was a public interest group that, looking 
through the FCC's data, is the one that bird dogged the fact 
that there was a huge issue with barrier free in their 
submission.
    I think also all the tools are going to be helpful here. I 
think the newly Open Government Data Act is also something that 
requires the FCC to make sure that data is published in a 
machine readable format is going to be an important way also to 
make sure that folks are able to validate and test this data.
    Mr. Loebsack. Thank you. I would like to move on now.
    Chairman Pai and other Commissioners here, I have a 
question about E-rate. In particular, there's been recent 
reporting about an NPRM before the FCC.
    Likely it will be published this week perhaps, which 
proposes the Universal Service Fund cap, and this has me rather 
concerned, as you might imagine, because we are talking about a 
cap on the whole Universal Service Fund. Under that we have a 
lot of different programs that compete for the moneys, 
obviously, potentially.
    In particular, one of my concerns is the contention that E-
rate and rural healthcare--RHC programs--be combined under a 
single cap.
    Commissioner Pai, do you think a cap will help consumers 
meet their broadband needs and shrink the digital divide and 
what would this proposal--would this proposal close the 
broadband homework gap facing rural students or not?
    Mr. Pai. Congressman, your question presupposes a 
conclusion. We are now in the process of thinking about the 
notice of proposed rulemaking that would tee up a lot of 
different ideas.
    Mr. Loebsack. All the more reason why I ask it now, so that 
you get the input from us.
    Mr. Pai. Yes, and we are not moving forward with a report 
and order at this stage. What is on the table is a notice of 
proposed rulemaking that tees up the question that if all of 
the four subsidiary programs under USF themselves have a cap or 
a budget should the overall program have a cap that it 
institutes fiscal responsibility and the like.
    And so that's one of the things we'd be happy to work with 
you on, going forward.
    Mr. Loebsack. Thank you.
    Commissioner Rosenworcel?
    Ms. Rosenworcel. I agree with you, Congressman. I think 
this is a problem. I don't think it's a good idea to have kids 
in rural classrooms fighting with telemedicine providers to get 
dollars for broadband. That's like the Universal Service Hunger 
Games. I don't think we need it.
    Mr. Loebsack. Thank you.
    I am running out of time. I did want to talk about ACAM, an 
Alternative Connect America cost model, and in particular, talk 
about the eligibility of home-based businesses between this 
original order and the subsequent guidance.
    We have a lot of companies in Iowa. We need, you know, 
clarification about this. I've got a petition here from a 
couple of companies in Iowa having to do with small businesses 
who are at home, how we count them in all of this as well, how 
we account for them, and I would like to submit that petition 
for the record if I could, Mr. Chair, and I yield.
    Mr. Doyle. Without objection, so ordered.\1\
---------------------------------------------------------------------------
    \1\ The petition has been retained in committee files and also is 
available at https://docs.house.gov/meetings/IF/IF16/20190515/109479/
HHRG-116-IF16-20190515-SD004.pdf.
---------------------------------------------------------------------------
    Mr. Loebsack. Thank you.
    Mr. Doyle. The gentleman's time has expired.
    The Chair now recognizes Mr. Kinzinger for 5 minutes.
    Mr. Kinzinger. Well, thank you, Mr. Chairman, for yielding. 
I would like to thank all of you for being here and your 
service, and I am sure it's always a blast. So thank you for 
doing it.
    I would also like to thank the FCC for its work to get 
multiple high bands of spectrum to auction, which helps our 
global rates to 5G.
    I understand that NOAA recently expressed some anxiety 
about the FCC's auction of the 24 gigahertz band--a band that's 
critical to building out 5G services.
    These concerns revolve around possible interference with 
weather sensors that operate in a nearby spectrum band. But, 
apparently NOAA only raised these issues right before the 24 
gigahertz auction started.
    So my top priority when I come to work every day is U.S. 
national security and the safety of the constituents I 
represent and I tend to view policy through that lens, first 
and foremost.
    So, Chairman Pai, with that in mind, will you take a moment 
to make the FCC's case on this matter and can you assuage these 
concerns?
    Mr. Pai. I would be happy to, Congressman, and appreciate 
your concern.
    Back in 2017, the FCC teed up the 24 gigahertz band, in 
particular, the appropriate protection limits in terms of the 
power emissions and the like for devices that would be using 
these bands for purposes of 5G.
    And what we said to all Federal agencies was if you have 
technical studies that can be validated that suggest that a 
protection limit that is different from the one that the FCC 
has applied for two decades is appropriate, let us know, and 
we'd be happy to take that into account.
    We never got a validated study over the subsequent 2 years. 
Shortly before the 24 gigahertz auction commenced and after the 
official position of the United States Government was formed 
for the purposes of an international conference that would be 
considering the appropriate protection limits for the 24 
gigahertz band, among others, we heard this concern.
     We still have not received a validated study. We have not 
gotten access to the data underlying that study. But 
nonetheless we have been working cooperatively with all Federal 
partners to see if there's a way to accommodate or at least to 
understand what their concerns are.
    In the middle of the 24 gigahertz auction, however, that is 
not the time to produce invalidated studies and do the other 
sorts of public relations campaigns that I don't think advance 
the ball in terms of leadership on 5G or reinforce the 
importance of these passive weather sensors or other important 
Federal functions that are in bands that are nearby.
    Mr. Kinzinger. Do you think that the Commission needs to 
tighten the limits for out of bound interference or is that 
more what you're trying to figure out?
    Mr. Pai. Congressman, to be frank, this is an engineering 
problem. This is not a policy or political problem. That is 
always the lens that I have used to scrutinize this.
    And so one of the things we have established for our 
satisfaction at least and for the purposes of the official U.S. 
Government position is that a protection limit of -20 dB is the 
appropriate one.
    If we get technical studies suggesting that a different dB 
level is appropriate for a protection limit, we'd be happy to 
hear that.
    But what we don't want to see is the--sort of the 
hyperbolic commentary that is not based on technical studies 
but is more of a political shot at the agency--at the entire 
U.S. Government at this point, which is designed not to advance 
the ball in terms of 5G or protecting those weather sensors, 
but is simply trying to score points up here on the Hill.
    Mr. Kinzinger. And, of course, I assume you will commit to 
work with other agencies and Congress to assess any reported 
cases----
    Mr. Pai. We have consistently had an open door, and I can 
tell you I've consistently instructed my staff from the 
international bureau, wireless bureau, every bureau and office 
at the agency if you get a request for information or a request 
for coordination, have an open door. Talk to them. And our 
teams have always been willing to do that.
    Mr. Kinzinger. Thank you.
    And last week you guys voted unanimously to prohibit China 
Mobile from doing business in the U.S. on national security 
grounds.
    You're also in the midst of proceedings to consider a 
prohibition on USF resources being used to purchase equipment 
from companies that pose similar threats.
    Just yesterday, the White House indicated the President is 
preparing to sign the executive order to ban telecom equipment 
from certain providers. We are talking Huawei, ZTE, and others.
    I applaud the Commission's proposal to protect our telecom 
networks and, by extension, the privacy and security of the 
American people and the Government.
    Some organizations have filed comments opposing these 
proposed actions on supply chain security and network integrity 
while others believe they don't go far enough.
    I, personally, find myself in that latter camp. In the 
digital age our communications networks simultaneously serve as 
the hammer of Thor but also our Achilles' heel.
    Networks allow our military services to coordinate 
operations from opposite ends of the Earth. But if a foreign 
adversary were able to disrupt or degrade our networks, we'd 
face severe consequences and if they were able to actually 
direct our networks that would be catastrophic.
    That being said, if there's a way to secure ourselves while 
bolstering commerce and protecting smaller companies who have 
made substantial investment in rural networks. I think it's a 
preferable option.
    Would you just briefly explain in 20 seconds why the FCC is 
only considering applying these to the USF fund and why the 
rule would only be prospective?
    Mr. Pai. Congressman, the short answer is that we have 
jurisdiction over the Universal Service Funding that we 
distribute and so we can condition that funding on making sure 
that it is not used on equipment or services that have been 
determined by the intelligence community, the national security 
community and others to present a national security threat to 
the United States.
    We don't have, necessarily, jurisdiction over all of other 
activities in the communications space. That said, if Congress 
augments our authority, I can tell you that we would be happy 
to administer that authority.
    This is a major issue for American national security. When 
it comes to this issue, we cannot take a risk and simply hope 
for the best. When you're talking about a 5G network, for 
example, that is managed using software from abroad, that--
those small cells are near a military installation, the last 
thing we want is for somebody that presents a national security 
threat to be able to gain access to that or otherwise exploit 
it.
    Mr. Kinzinger. Well, I thank you all for your leadership on 
that issue, and I yield back, Mr. Chairman.
    Mr. Doyle. The gentleman yields back.
    The Chair now recognizes Mr. Veasey for 5 minutes.
    Mr. Veasey. Thank you, Mr. Chairman, and good morning to 
the Commissioners for being here today to speak with us.
    I represent the Dallas/Fort Worth area and many of you 
probably have read that we are one of the fastest growing areas 
in the entire country. I think we've got over a million 
people--new residents in the Dallas/Fort Worth area according 
to early preliminary census numbers since 2010 and that's 
really great.
    But in spite of that, I have one of the lowest income 
districts in the entire country, based on per capita household 
income, and out of the constituents that I represent over 800 
are veterans and over 5,000 senior citizens that are taking 
advantage of the--of some of the programs that you guys offer.
    And I wanted to ask you specifically--and as a matter of 
fact, the district that I represent has--is the seventh-highest 
congressional district in Texas with Lifeline subscribers.
    And I wanted to specifically ask you is--because it's come 
to my attention that the FCC has introduced an item on 
circulation that would put in place overall caps on four 
programs that serve many low-income and elderly Texans.
    And, Commissioner O'Rielly, I specifically wanted to ask 
you, you discussed the need for fiscal responsibility using the 
taxpayers--using funds that taxpayers contribute to the 
Universal Service Fund fees and the need to prevent fraud and 
waste and abuse in the Universal Services Fund program.
    Do you think the lack of transparency the FCC has exhibited 
in providing the number of enrolled subscribers to these 
programs is helpful in determining whether an overall cap 
should be implemented with the purpose of deterring waste, 
fraud, and abuse?
    Mr. O'Rielly. So I appreciate your question. Congressman 
Loebsack before you talked about what the overall cap would do. 
This belief--and I've been called a corporate shill and now, 
you know, Hunger Games in terms of this effort.
    I brought a map with me. I am happy to submit it for the 
record--or not map, a graph to highlight what the cap and where 
the delta is between the two--the two lines in terms of where 
the spending is today, where it's expected to go, and where the 
proposed cap is. It's a $2 billion delta.
    So the idea that there's going to be any cuts to the four 
programs, which, by the way, all have caps today, the Lifeline 
cap is a soft cap but it does require action by the Commission.
    And I am--people said, ``Oh, this is a back door way to do 
a Lifeline cap.'' I will do a front door approach on a Lifeline 
cap because I think we need to have responsibility.
    To your question do I think that there is adequate 
information regarding the data in Lifeline, I think more can be 
available. I think there are some questions regarding the 
verifier program and its application.
    I have been meeting with a number of providers who have 
been worried about the re-enrollments rate and the adoption 
rates in different States that we've adopted that, and I've 
been preparing to talk to USAC about that because there's 
discrepancy between where we think the numbers are going and 
where the providers are going in terms of that behavior.
    Mr. Veasey. What is the FCC doing to ensure that people who 
are eligible for these programs understand what benefits are 
available to them and what is being done to give providers 
incentives to continue to participate in the programs?
    Mr. O'Rielly. I think the Chairman is better in terms of 
answering some of those parts of the equation.
    Mr. Pai. I appreciate that, Commissioner, and I appreciate 
your question, Congressman.
    We are doing a number of things. Most notably, in the 
context of the national verifier we are working very hard to 
link up with other databases to enable them to be eligible.
    For example, currently there are three States that I 
believe by early June are going to be up and running. I think 
Texas might be one of them but let me double check and get back 
to you on that.
    But the FCC's national verifier database would essentially 
link up with the SNAP and there is another database that we 
connect with.
    Additionally, I personally requested to Seema Verma, who is 
the head of the Center for Medicare and Medicaid Services, to 
work with us on the IT integration that is necessary to make 
sure that our databases mesh.
    And assuming we can solve those IT problems I would hope 
that later this year we'll be able to make sure that that is 
fully integrated, which would be another way of ensuring that 
we ping those low-income consumers on a variety of different 
axis. So whether it's healthcare, I would like to make sure 
they get those benefits.
    Mr. Veasey. Real quick, Commissioner Rosenworcel, would you 
please follow up on that?
    Ms. Rosenworcel. Thank you, Congressman.
    Your concerns are totally valid. We have before us a 
proposal to cut Lifeline by 70 percent. That would cut off the 
veterans in your district, the elderly people who rely on it 
and some of the least connected people in this country.
    I think it's cruel. I think we need to end this proceeding 
right now.
    Mr. Veasey. Thank you. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Doyle. I thank the gentleman.
    The Chair now recognizes Mr. Scalise for 5 minutes.
    Mr. Scalise. Thank you, Mr. Chairman. I appreciate the 
time, and I want to thank the Commissioners for your service, 
for coming here and, you know, just having this conversation 
with us as the marketplace keeps expanding.
    It's exciting as we talk about 5G, as we talk about also 
confronting some of the challenges within the industry and the 
growth in the industry. We want to make sure that the industry 
can keep growing as it is and America leading the world in 
technology and really you all are at the forefront of it.
    The policy is real important to make sure that we are not 
having policy that gets in the way. I want to talk about a 
couple of things first on something that we had worked on 
together for years and that is the consolidated reporting--to 
actually have all of the different various reports that the FCC 
had to do that were ridiculous, outdated.
    You all had to do a report--required by law to do a report 
on competition within the telegraph industry. I know a lot of 
people out there in the telegraph industry probably eagerly 
anticipated that report. But Samuel Morse would probably agree 
that that time has come and passed.
    And, finally, we were able to get rid of that report among 
a number of others, and then with some of them you had to do 
annual reports that really didn't make sense and they were all 
done in siloes.
    And now that we do have this first report that came out--
the consolidated report--it put a lot of work on you all's 
plate to come up with the first report that came out in 
December.
    And I want to first ask how did that process work, is it 
working the way we anticipated in terms of how the law gave you 
that ability to stop having to do things that didn't make sense 
and to come up with something that can actually help people, 
guide people, about where the industry should go.
    If you, Chairman Pai, would fill us in.
    Mr. Pai. I appreciate your question, Congressman, and the 
leadership this entire committee showed in passing that 
legislation sorely needed. It was something that I believed in 
strongly.
    When I was a Commissioner I used to complain about the 
sixteenth, seventeenth iteration of the ORBIT Act report, which 
reported to Congress yes, the satellite was indeed privatized 
in 2001, and nothing has changed since then.
    I can now tell you that I know as the Chairman, having 
stewarded the first such report under the Consolidated 
Reporting Act, it is a tremendous benefit to be able to free up 
those staff resources that otherwise would be spent compiling 
these reports that nobody would read or that were otherwise 
outdated.
    On things that really deliver value for the public 
interest, it's been a huge help. And so we'd be happy to work 
with you if there are additional consolidations in the works, 
so to speak, and I can tell you though that it's--from an 
administrative perspective alone it has been worth its weight 
in gold.
    Mr. Scalise. Well, I appreciate that. It's good to hear. I 
do want to know because we've talked a lot about this too and 
that is that many of the laws that govern the video marketplace 
today are governed by the 1992 Cable Act.
    Now, back in 1992 I am sure it was a good bill. You had 
cable companies. You had, literally, monopolies and monopolies. 
Cable companies would negotiate with, at the time, the three 
broadcast networks and that was most of what you had.
    And then as you had some of the different cable companies 
starting to develop and emerge, in time we came up with 
satellite and broadband, fiber, and so many other things.
    Now you have over the top. People are cutting their cord 
because they can do so many things whether it's Sling or Roku 
or you have got streaming services, and all of that is kind of 
the wild, wild West because the 1992 law is outdated.
    And so as we talk about how to get a more updated version 
of this, and I know I've worked on some things. You have worked 
on some things. Some other members of the committee have been 
working on ways to update these laws.
    If you can give us any of your input, both Chairmen Pai and 
O'Rielly. I know we've talked about these, too--about things 
that we need to do or should be thinking about to update what 
maybe was modern at the time in 1992 but now is very outdated 
and not up to date with all of the changes that have happened 
in the video market place.
    Mr. Pai. Congressman, that issue you have targeted, which 
is the transformation of the marketplace, matched by stasis in 
our rules, is one of the most fundamental challenges we have 
with respect to our media regulations.
    I would defer to you, of course. You have done a lot of 
great bipartisan work on this issue in terms of the particular 
legislative vehicle.
    What I will say is something that I proposed 6 years ago as 
a Commissioner. Congress cannot always act, certainly, not 
quickly, with respect to some of these issues.
    But what would be extremely helpful is if we had something 
similar to what we have on the telecom side. Under Section 10 
of the Telecom Act of 1996, for example, Congress extended to 
the FCC forbearance authority if the Commission determines that 
it's no longer in the interest of the competition or the public 
interest to retain a particular regulation or statutory 
mandate.
    We have the power to refrain from enforcing it. To have 
similar authority for non-telecom services would enable the FCC 
to work with much greater dispatch, it would allow us to align 
our rules with the realities of the current marketplace, and 
would now allow you to see the benefits of the innovation and 
investment that could take place if we didn't have rules on the 
books that were holding it back.
    Mr. Scalise. Thanks. I know I am running out of time but I 
appreciate all of you being here, and as we continue to work to 
make sure ultimately it's the consumers that we want to see get 
the best benefit because competition benefits the consumer and 
we want to make sure that the laws that we pass and that we 
have on the books are up to date and recognize where we are 
today so the consumers can continue to benefit from that 
competition and lower prices and more options for them.
    So with that, I appreciate the work you do and I yield 
back, Mr. Chairman.
    Mr. Doyle. The gentleman yields back.
    The Chair now recognizes Mr. McEachin for 5 minutes.
    Mr. McEachin. Thank you, Mr. Chairman, and let me start by 
thanking you and Chairman Pallone for holding this important 
hearing.
    Despite funding and bipartisan support, rural broadband 
deployment in this country has lagged behind where it should be 
for far too long.
    In the past few years, we have spent billions of dollars on 
efforts to expand broadband internet services in rural America, 
and yet, while some progress has been made, we are still in 
need of greater expansion.
    We all know the detrimental effects lack of internet access 
can have on communities including creating disincentives for 
businesses to locate in such areas.
    I know this firsthand. Before coming to Congress I was a 
small business owner and when attempting to expand my business 
we had to make decisions in terms of not just which populations 
we wanted to serve but also which communities had sufficient 
connectivity.
    In one instance, we were forced to abandon a promising 
location because of inadequate broadband access. This 
experience reinforced why it is so important that we do better 
and an important first step for us to expand broadband is to 
understand where it exists or, in other words, ensure that we 
have accurate data in mapping.
    Chairman Pai, first of all, thank you for appearing before 
the subcommittee today. Is it safe to assume that you believe 
it is important to have accurate, more granular data in maps 
regarding where broadband currently exists? Yes or no.
    Mr. Pai. Yes, sir.
    Mr. McEachin. I also gather from your August 2017 press 
release on the FCC's 2017 FMPRM regarding the improvements to 
Form 477 you believe it does not currently reflect the best 
possible way to collect this data, especially the form's 
language that allows ISPs to claim coverage of an entire census 
block if one household or establishment is connected within 
said block. Is that correct? Yes or no.
    Mr. Pai. Yes.
    Mr. McEachin. Excuse me. Are there current steps in place 
to verify ISPs' self-reported 477 data is accurate? Briefly, 
what are those steps?
    Mr. Pai. Congressman, we are currently in the process of 
revamping that Form 477 process, working with stakeholders from 
different sectors of the industry to figure out how to improve 
it.
    And the problem you identified about the census block being 
deemed covered if a single household in the block is getting 
service but nowhere else is, that's one of the things we are 
trying to get at is how do we get more granular information.
    So we are evaluating different proposals for how to move 
forward on it. But we share that goal. We want to make sure 
working with stakeholders including some of the rural broadband 
advocates you described that we get a better sense of where 
broadband is and, more importantly, where it is not.
    Mr. McEachin. Thank you.
    In March of this year, BarrierFree made claims on its 477 
data asserting it went from serving zero census blocks as of 
June 30th, 2017, to serving nearly 1.5 million blocks 
containing nearly 20 percent of the U.S. population in just 6 
months.
    This level of deployment would have made BarrierFree the 
fourth largest U.S. provider in population coverage. One of the 
States allegedly--they allegedly had complete coverage was 
Virginia.
    In a press release earlier this month, you stated that--you 
stated you have since corrected the data in that report, which 
I do appreciate. But I am curious as to how BarrierFree's 477 
Form was not realized through the verification process before 
your office put out a press release.
    Are there other providers whose data is also inaccurate 
within the report? If not, how confident are you that that is 
the case and what steps have you taken to verify said data?
    Mr. Pai. I appreciate the question, Congressman. 
Immediately after learning about that issue I directed staff to 
look into it and we made the appropriate corrections and we've 
also asked them to scrub all of the data to make sure that 
everything in the report is accurate.
    And so we issued to the fellow Commissioners the revamped 
report where those numbers would still show the digital divide 
closing, albeit not as much as was originally projected.
    Mr. McEachin. Mr. Starks, while I know that you have only 
been there a hundred days, would you share your perspective 
with us?
    Mr. Starks. Yes. Thank you so much for the question. This 
gets to sound data practices--that there is not what I think I 
heard the Chairman just say, is that after the fact now he's 
asked for a scrub of the data.
     The fact that there was not an outlier detection for a new 
entrant--in my mind a new entrant probably should have been 
scrubbed even more on the front end because they haven't 
previously submitted 477 information.
    The fact that a red flag didn't pop up when somebody goes 
from zero to nearly 62 million households is something that I 
think the data process needs to be corrected.
    And, obviously, when we are talking about 477s we need to 
make sure that we have a better understanding of not at the 
census block level but at the address level I think is going to 
be important.
    Mr. McEachin. Thank you.
    Mr. Chairman, I yield back.
    Mr. Doyle. The gentleman yields back.
    The Chair now recognizes Mr. Johnson for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman, and I want to thank 
the Commission for being with us this morning.
    Chairman Pai, thank you especially for making yourself 
available last week to sit down and chat. During our session we 
talked about how we are just now learning about the educational 
broadband services capability and the 2 gigahertz band and how 
that might be a tactical solution to roll out some broadband 
access to rural parts of the country, my district being one of 
those, and you know they're very, very hard to serve.
    I understand there are a number of rural operators that 
would love to partner with educational groups to deploy 
broadband quickly and in some cases have already done so in 
some of the most remote areas of the country.
    I even heard about a Native American Tribe in Arizona 
getting a special license waiver and deploying a network in one 
day for under $20,000.
    Now, I think if we can use EBS technology to deploy 
broadband to the bottom of the Grand Canyon, we can just as 
easily get it out to rural parts of my district.
    So how does a qualified entity from my district apply for 
an EBS license?
    Mr. Pai. So, Congressman, that proceeding is pending right 
now. We have made a notice of proposed rulemaking a while ago 
to figure out how best to use that 2.5 gigahertz resource for 
the benefit of consumers in rural areas, and that is one of the 
concerns that was expressed in the record was the fact that 
historically it has not been used to the maximum extent it 
could be.
    And so that is one of the things we are exploring is how to 
work with various stakeholders including----
    Mr. Johnson. I am just curious. Do you have any idea when 
that's going to be finalized?
    Mr. Pai. I don't have any announcements to make today. But 
what I can tell you is that we do recognize the interest in 
this particular band and look forward to working with Congress 
and other stakeholders to make sure it's wisely utilized.
    Mr. Johnson. OK. Well, good. Well, I look forward to 
hearing more about that because it is--from the little bit that 
I know it seems like it might have big promise in rural parts 
of the country.
    You know, one of the--the solution we most frequently hear 
about in terms of broadband expansion is some sort of 
Government subsidization or assistance to bring broadband to 
underserved areas.
    That is great. But it feels like this is only part of a 
solution that will have many different components. For 
instance, the private sector already invests billions in 
private capital each year in broadband.
    Are there Federal regulations on the books that you believe 
disincentivize private investment in broadband deployment of 
wireless and wireline networks in rural areas?
    Mr. Pai. I do believe there are a great many Federal rules 
and regulations, Congressman, that stand in the way.
    Mr. Johnson. Well, could you--could you supply us with a 
comprehensive list so that we can go to work on those? Because 
as I mentioned to you last week, we need to start showing some 
real progress on rural broadband expansion.
    Mr. Pai. I would be happy to--oh sorry.
    Mr. Johnson. And also as I mentioned in our meeting last 
week I have heard many concerns from my constituents and other 
members and even some of the Commissioners about the FCC's 
current approach to mapping.
    Chairman Pai, what is being done to improve the mapping 
process?
    Mr. Pai. In addition to some of the work we have been 
doing, as I mentioned in response to a previous question, we 
have an ongoing proceeding on the From 477 process to make sure 
that we get more granular detail on where broadband is.
    It is not enough to say that a census block is covered if 
only a household within that block is covered. So we are 
working with various stakeholders to figure out how to make 
that data more granular.
    On the mobile side, when I first came to office we started 
a new data collection for wireless broadband because we did not 
think that the data that we were getting was sufficient.
    And so in the context of the Mobility Fund Phase II, we 
started to bespoke a data collection effort. Unfortunately, we 
have not started an enforcement investigation to a provider or 
providers who we believe may have submitted inaccurate data.
    But what I can tell you is we are looking to make sure that 
we have a more accurate sense of mobile broadband coverage as 
well.
    Mr. Johnson. Well, I can tell you, you know, I, for one, 
and I am sure Members on both sides of the aisle would agree, I 
stand ready to help and if there's anything that we can do, get 
us that list of regulations that we need to tackle to begin 
breaking down the barriers so that we can show some real 
results in broadband expansion to rural America.
    Mr. Pai. I would be happy to do that, sir.
    Mr. Johnson. Thank you, Mr. Chairman, and I yield back.
    Mr. Doyle. The gentleman yields back.
    The Chair now recognizes Mr. Soto for 5 minutes.
    Mr. Soto. Thank you, Mr. Chairman. I have the honor of 
representing central Florida, a very diverse area from tourism 
and technology in the north and suburbs to rural areas in the 
south, and I think about how whether it is cell phones, the 
internet, you name it, in technology how it is so integral to 
our lives
    One of the areas that we have is the busiest space port in 
the Nation and in the world at Cape Canaveral and we are 
concerned about finishing up rulemaking for the area of the 
spectrum that is utilized for American rockets.
    More specifically, the FCC regulates spectrum used almost 
every day by American rockets launched to space including our 
missions to the Space Station.
    But we haven't finished with the rulemaking that started in 
2013, and even as the number of launches have dramatically 
increased.
    Chairman Pai, you were supportive of that rulemaking when 
it first came out. Will you commit that the FCC will finish 
that rulemaking so that as we get into a busier rocket season 
over the next couple of years that we'll be ready to go?
    Mr. Pai. Congressman, I appreciate the question. I have 
been to a launch in the last year. So I have seen how 
impressive it is and how important it is.
    We certainly want America to lead the way in space. Now, 
the frequencies that are used to support commercial space 
launches are allocated exclusively to the Federal Government.
    And so, traditionally, we've had to go through the special 
temporary authority route to do that. Now, the proceeding that 
you're talking about deals with frequency allocations as 
opposed to the licensing processes for launches.
    So one of the things we will have to explore is how to 
proceed to accommodate the concern which I share--American 
leadership in space--but also on the basis of a record that has 
been fully fleshed out.
    So I would be happy to work with you on that and keep you 
updated.
    Mr. Soto. Well, please submit any proposed legislation and 
ideas that we could help to make sure that we can get this done 
because we are launching rockets with greater frequency and 
we'll have human space flight again probably this year at the 
Cape. So we want to be ready for that. Thank you.
    My next question is regarding Hurricane Maria. I am of 
Puerto Rican descent and we have many of us. The largest 
diaspora in the Nation is in Florida.
    You know, we saw the largest death toll in the modern 
history with nearly 3,000 people dying and some of that was 
because the electricity couldn't get back up. But some of it 
was by virtue of communication.
    I know, Commissioner Rosenworcel, you had talked a little 
bit about it with Chairman Pallone's question. But what could 
we--what have we learned and can do better with regard to 
responding to hurricanes, particularly those in islands?
    We have States that are islands. We have parts of States 
that are island. We have territories that are islands. What 
could we do better?
    Ms. Rosenworcel. Thank you for the question. I spent time 
in Puerto Rico after the hurricane. I also spent time there as 
a child, as I had family that lived there, and it was 
devastating beyond description what I saw.
    And it is now a year--more than a year later and they're 
still rebuilding. There are two things right now that the FCC 
should do.
    First, we have got to stop the threat to their Lifeline 
program. Half a million individuals in Puerto Rico rely on that 
program to stay connected. They are trying to put their lives 
back together. We have got to stop threatening to take their 
service away.
    Second, the Chairman started a proceeding to identify over 
the long term how Puerto Rico and the Virgin Islands can 
rebuild their networks as a result of Hurricane Maria. We need 
to bring that to a conclusion.
    And then finally, in the aftermath of all of these storms I 
think we have to stop acting like voluntary procedures next 
time are going to work better.
    We need to put some requirements in our rules and learn 
from these disasters to make sure these problems do not happen 
again.
    Mr. Soto. Thank you for that. One of the issues we are 
looking at is whether to activate FM chips in cell phones 
during disasters. It is something I encourage you all to look 
at and if we do need some legal authority to empower you for 
that it's something I am interested in working with you on.
    Overall survey question for all of you, very quickly. We 
had the FTC in last week. So who--which institution is best 
positioned to enforce potentially new net neutrality rules, the 
FCC or FTC?
    It would be great to go down the line, starting with you, 
Chairman. Which institution is better positioned to enforce 
those rules?
    Mr. Pai. Depending on which rules you were talking about, I 
would say the Federal Trade Commission.
    Mr. Soto. Mr. O'Rielly?
    Mr. O'Rielly. I don't support the rules. But I would say--
--
    Mr. Soto. That is not the question.
    Mr. O'Rielly. Sure.
    Mr. Soto. Which institution is better?
    Mr. O'Rielly. I think the FTC has the appropriate authority 
in this space.
    Mr. Soto. Mr. Carr?
    Mr. Carr. Thank you. We are now in--we are now in a 
situation where we don't have to make that choice. Right now, 
the FCC can work----
    Mr. Soto. OK. But which--that is not the question. Is FCC 
or FTC better situated to enforce those rules?
    Mr. Carr. Right now we have the best of all worlds. We have 
the FCC that can work with the Federal Trade Commission to----
    Mr. Soto. OK. Nonresponsive.
    Ms. Rosenworcel?
    Ms. Rosenworcel. The answer is the FCC. The Congress made 
us----
    Mr. Soto. Mr. Starks? My time is limited. Sorry, everyone.
    Mr. Starks. There is no doubt it's the FTC.
    Mr. Soto. Thank you, and I yield back.
    Mr. Doyle. The gentleman yields back.
    The Chair now recognizes Mr. Walberg for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman, and thanks to the 
panel for being here, and Mr. Pai--Chairman, we appreciate your 
work and willingness to take the hits at times.
    Chairman Pai, like you, one of my top priorities is 
expanding broadband access to rural America and I know 
Commissioner Carr understands that, having been in my district, 
heard my repeated whining about broadband needs, and 
Commissioner O'Rielly as well. Thank you for listening to my 
whining also.
    But it's an important thing and yesterday I led a letter 
with my colleagues from the delegation to you outlining the 
need to reform the Commission's broadband availability maps.
    And, Mr. Chairman, I would like to enter this letter into 
the record.
    Mr. Doyle. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Walberg. Thank you.
    As you know, the Commission's proceeding to modernize its 
data collection has been open for almost a year. I also want to 
thank our Republican Leader Walden for his focus on this issue, 
going back a number of years.
    My question is when examining potential fixes to this 
process, have you coordinated with other Federal agencies that 
track broadband availability or other Federal support for the 
deployment of broadband facilities to ensure your data 
collection is standardized to the greatest extent possible?
    Mr. Pai. I appreciate the question, Congressman. The answer 
is yes. For example, we have worked with the Department of 
Commerce, the Department of Agriculture, as well as non-
industry stakeholders to figure out the appropriate way 
forward.
    Mr. Walberg. This certainly seems like a building block to 
better interagency coordination and----
    Mr. Pai. I would agree.
    Mr. Walberg [continuing]. Lacking wasting of resources.
    Chairman Pai, yesterday the Commission announced it 
authorized the release of another $111 million in CAF II 
funding to expand broadband to unserved areas, while none of it 
went to Michigan, including where I live and where I am 
unserved myself.
    I am hopeful subsequent authorizations recognize the 
unserved communities in my district and throughout the State. 
The Commission recently announced that it is contemplating a 
$20 billion rural digital opportunities fund to offer high cost 
universal service support.
    How do you plan to coordinate with Federal agencies like 
the Rural Utility Service at the Department of Agriculture to 
ensure those funds aren't used to support projects that are 
competing against other federally subsidized projects?
    Mr. Pai. A great question, Congressman.
    First, though, I want to make sure that I make clear that 
the initial disbursement of funds that you referenced yesterday 
there are other winners for the Connect America Fund who are in 
Michigan. It wasn't just in this tranche, however. So we will 
keep you posted.
    We certainly want your constituents and you to get the 
benefits of broadband.
    Mr. Walberg. Well, we look forward to that.
    Mr. Pai. Absolutely.
    With respect to your question, there are a few different 
things that we would like to see in the rural digital 
opportunities and I would like to see, depending, of course, on 
the Commission's assent.
    One is to use that basic mechanism of the reverse auction 
to encourage all kinds of companies to compete. For example, 
electric utilities, cable companies, and others might have a 
deeper footprint in your district than a traditional recipient 
of those funds. We want to encourage all of them to compete.
    Additionally, we have service thresholds that we believe 
will encourage the highest quality service. It's not enough to 
say, as the previous Connect America Fund did, well, 10.1 
megahertz per second service that is good enough. 25.3, we 
think, should be the standard and our hope is we will be able 
to encourage that.
    Additionally, accountability--we want to make sure those 
funds are used for the purpose that they were intended for. And 
so there will be accountability mechanisms to make sure that if 
somebody says we are going to serve that district in Michigan 
they do in fact serve it within the time frame and at the 
service threshold they promise us they will.
    Mr. Walberg. Good. We don't just want talking points and--
--
    Mr. Pai. Absolutely.
    Mr. Walberg [continuing]. We feel we deserve that service 
as well. So thank you.
    Commissioner O'Rielly, is there anything you would like to 
add?
    Mr. O'Rielly. Well, I would just add that as nice as--and I 
agree with my colleague's point--other agencies will have the 
coordination, will have the conversation. But absent 
congressional statutory language, they have a tendency to go 
their own route, as we have seen in conversations with outside 
parties, what's happening at the Department of Agriculture, and 
we've seen that in the past as it relates to the Department of 
Commerce.
    So absent Congress saying that this is what we expect, it 
is not just coordination but actually duplication that no 
overbuilding happen. Then the areas that we are going to spend 
time on are not going to be the unserved areas such as in your 
particular case.
    Mr. Walberg. One final point, and I know I am running out 
of time. Workforce--what is the Commission doing to ramp up the 
workforce?
    Mr. Pai. Great question, and Commissioner Carr has done a 
lot of work on the infrastructure side. I will say, just very 
briefly since time is short, we set up a working group as part 
of our broadband deployment advisory committee to look at the 
jobs training and other necessary steps to build that workforce 
of the future.
    These are high-quality good-paying jobs. But they won't be 
filled if we don't make an effort to encourage that pipeline of 
workers. So be happy to work with you on that and this is 
something that I think would have application around the 
country. This infrastructure is needed everywhere.
    Mr. Walberg. Thank you. Thank you.
    I yield back.
    Mr. Doyle. The gentleman yields back.
    The Chair now recognizes Mr. O'Halleran for 5 minutes.
    Mr. O'Halleran. Thank you, Mr. Chairman, and thank you, 
Commissioners, for appearing before us today to discuss your 
role in overseeing today's rapidly evolving telecommunications 
landscape.
    Since joining the Energy and Commerce Committee, I have 
made addressing rural broadband my number-one priority. 
According to Congressional Research Services, only 39 percent 
of Arizonans in rural areas have access to broadband at 25.3 
speeds.
    Even the FCC's latest Tribal broadband reports states that 
36 percent of Tribal households lack any access to broadband at 
25.3 speeds.
    I believe, based on what I have heard so far, that that 
number is probably much lower. This is simply unacceptable in 
America today. Access to reliable broadband means access to 
cutting-edge capabilities of modern technology, including 
telemedicine, online education, and global connectivity.
    Closing the digital divide is not only important for rural 
America but also for Indian country. For instance, I represent 
the Havasupai Tribe at the bottom of the Grand Canyon, making 
them the most remote Tribe in the lower 48 States.
    This Tribe was previously unserved by any commercial 
solution, yet was recently able to leverage an educational 
broadband service spectrum license to provide a broadband 
network to their community in just one day.
    Mr. Chairman, I ask for submission of a Seattle Times 
article for the record.
    I urge the FCC----
    Mr. Doyle. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. O'Halleran. Thank you, Mr. Chairman.
    I urge the FCC to pursue license spectrum strategies to 
target the truly underserved areas.
    Chairman Pai, per Section 508 of the RAY BAUM'S Act, what 
steps will your Commission take to issue a robust proceeding to 
address Tribal connectivity following the FCC's recent report 
on broadband deployment in Indian Country?
    Mr. Pai. I appreciate the question, Congressman, and I have 
personally been to a Navajo Nation on and around and so I've 
seen the connectivity challenges on Tribal lands in your 
district.
    We have taken a number of steps--for example, Tribal OpEx 
support, increasing the amount of support that Tribal carriers 
get for operational expenses, not just the CapEx to build a 
network.
    Additionally, we have been exploring a Tribal broadband 
factor to give Tribal carriers an extra bump if they are 
serving Tribal lands.
    In addition to that, one of the things we proposed in the 
context of the educational broadband spectrum--EBS--was to 
create a window for Tribal entities or entities serving Tribal 
lands to participate to get access to that spectrum.
    And additionally, I want to make sure I point out that the 
announcement I made earlier about the Connect America Fund 
auction recipients, folks in your district got funding from 
that just this week. And so we are going to see--or they will 
get the funding by the end of the month. The announcement was 
made they will be getting funding this week.
    So we hope that as the dollars start to flow that broadband 
connectivity will start to increase as well.
    Mr. O'Halleran. I hope so too, and I will be asking you for 
a list of time lines and how this is going to be accomplished 
in a way that indicates--identifies clearly the critical needs 
in these areas.
    The GAO has clearly stated that using Form 477 may vastly 
overstate true broadband availability since it is based on a 
broad census block model.
    Commissioner Rose--I have problems just like Chairman----
    Ms. Rosenworcel. It is all right.
    Mr. O'Halleran. Rosencel--I am not even close.
    [Laughter.]
    Mr. O'Halleran. Would you say the findings in the latest 
Tribal broadband report could depict inaccurate coverage levels 
throughout Indian Country?
    Ms. Rosenworcel. Thank you for the question. Listen----
    Mr. O'Halleran. We just met the other day.
    [Laughter.]
    Ms. Rosenworcel. I know. I know.
    Native Americans shouldn't be the last Americans to see the 
digital age and all the information around us suggests that is 
true. The GAO has criticized the very data that the FCC just 
used in its late report that we just filed pursuant to the RAY 
BAUM'S Act.
    We have 18 more months to complete a proceeding to fix this 
situation and I encourage this committee to keep pressure on us 
because we have so much work to do.
    Mr. O'Halleran. Well, I guarantee we will, Commissioner.
    Chairman Pai, could you elaborate on where the Commission 
stands in its open proceeding to update broadband availability 
mapping using Form 477 and will the FCC remain committed to 
finding a granular approach that balances timeliness, cost, and 
personal privacy.
    I, personally, as a business person can't understand how 
you make decisions at all with this current mapping process. So 
please.
    Mr. Pai. I appreciate the question. The answer to your 
second question is yes, we do understand the balance that you 
just described and are seeking to find that balance in our 
proceeding.
    With respect to the first question, we are working with 
stakeholders and I am going to be briefed by our staff soon on 
where things stand and how to move forward. A number of 
different stakeholder groups have advanced different proposals 
in terms of shape files or other mapping initiatives.
    We want to evaluate all those in addition to thinking about 
crowd sourcing and other third party data that we could use to 
make sure that we get a better understanding of where broadband 
is, including in the first district.
    Mr. O'Halleran. Thank you, Mr. Chairman.
    I yield.
    Mr. Doyle. The gentleman yields back.
    The Chair recognizes Mr. Gianforte for 5 minutes.
    Mr. Gianforte. Thank you, Mr. Chairman.
    And Chairman Pai and Commissioners, thank you for being 
here today.
    Montanans have told me that one of the worst things they 
face day to day are illegal robocalls. They are getting called 
with bogus insurance offers, threats of legal action and 
promises of government grants.
    Robocall scams put Montanans at risk of being robbed or 
having their identity stolen. I have told the story before 
about a young Montanan who received a robocall from her younger 
brother's number except her younger brother had died of a 
heroin overdose a couple of months before.
    These kinds of robocalls are malicious and deceptive. 
Chairman Pai, could you just outline what you are doing to 
prevent robocalls?
    Mr. Pai. I appreciate the question, Congressman.
    I am sorry to hear that distressing situation that that 
woman had to face. We have been taking aggressive action.
    We have empowered, for example, companies to block calls 
from obviously spoofed numbers. We have set up a reassigned 
numbers database so that legitimate callers don't have to worry 
about bombarding consumers who didn't want those calls.
    We have also taken aggressive enforcement action against 
some of the robocallers including the largest fines ever 
imposed in the FCC's history.
    I have personally demanded that the phone industry adopt 
call authentication by the end of the this year. Also, the FCC 
will take regulatory intervention.
    And just today, as I mentioned in my opening statement, I 
am proposing--and I hope my colleagues will agree--to allow 
robocall blocking by default so that consumers don't have to 
affirmatively opt in to those services.
    Phone carriers will block them by default so, in many 
cases, a consumer wouldn't even know that a robocall had been 
placed because it would be blocked at the outset.
    Mr. Gianforte. OK. Thank you for those actions. If there's 
things that--actions we need to take if you could inform us. I 
think we have bipartisan support for action in this area.
    Mr. Pai. Absolutely.
    Mr. Gianforte. Many Members have raised their concerns with 
the accuracy of our broadband maps. The lack of clarity in 
Montana leads to maps showing coverage areas where there is no 
coverage.
    This restricts USF dollars from getting to communities that 
need it the most. Chairman Pai, you answered Mr. Johnson 
earlier so I appreciate your response to this question.
    I had a question for Commissioner O'Rielly, if I could. Do 
you think a challenge or a validation process could help us 
improve the accuracy of the broadband maps?
    Mr. O'Rielly. Absolutely, and we do have a challenge 
process and that's somewhat how we found some of the problems 
with our current maps. So I pushed for that in the past and the 
Chairman has been accommodating, and so I think both are 
important components to that.
    Mr. Gianforte. It is critically important we get accurate 
maps so we know where the USF dollars have to flow.
    Chairman Pai, 5G is going to come to rural America if and 
only if lower bands of frequencies are put to good use, and my 
understanding is that the mid-band spectrum is particularly 
important.
    These bands of frequencies provide the right mix of 
capacity and coverage that will enable network operators to 
deploy in rural America. I am interested in learning more about 
your efforts around the reallocation of C-band.
    As you consider the best way to provide mid-band spectrum 
in a timely manner, how will you ensure that this frequency is 
built out in rural America?
    Mr. Pai. A great question, Congressman, and the 3.7 to 4.2 
band in particular sits at one of the sweet spots in terms of 
spectrum. It is low enough to get good coverage and high enough 
to offer good capacity.
    One of the things that we have been working through as some 
of the complicated issues--legal, technical, economic, and 
others--in terms of how much spectrum to reallocate from that 
band, whether it's 200 or more megahertz, and also what the 
mechanism is for getting that spectrum freed up.
    One of the things that we've been working through along 
with Members of Congress is the right way forward. Our goal 
here is pretty simple--to allocate as much of the spectrum as 
possible as quickly as possible and as fairly as possible for 
the benefit of the consumers.
    You know better than most Montana is a pretty rural State. 
I have seen it in the Absaroka Wilderness, in the Beartooths 
and elsewhere. There are some pretty remote parts of that 
State.
    But we want to make sure that wireless coverage extends to 
as many areas as possible. The C-band could be a good use of 
that.
    Mr. Gianforte. And are there build out requirements or 
guarantees that the FCC could put in place if the bandwidth 
transfers in a private sale? Do you have oversight there?
    Mr. Pai. We do. We would have oversight if we went to the 
private sale mechanism. I would have to look at it carefully at 
what the legal ramifications are in terms of imposing build out 
requirements. I can't recall off the top of my head if 
there's----
    Mr. Gianforte. Keep us informed. One last question, if I 
could, Chairman Pai.
    Mr. Pai. Sure.
    Mr. Gianforte. The U.S. Small Business Administration 
submitted a letter to the FCC recently indicating concerns with 
your UNE forbearance and its impact on small business.
    What is the Commission doing to address those concerns?
    Mr. Pai. I have personally met several times with then-
Administrator McMahon including about these issues. We received 
the letter. We incorporated it into our proceeding and that is 
one of the things we are working through as we go forward is 
how to accommodate the concern that she expressed in that 
letter.
    Mr. Gianforte. OK. Montana is a small business State so I 
appreciate your attention there.
    And with that, Mr. Chairman, I yield back.
    Mr. Doyle. The gentleman yields back.
    The Chair now recognizes Ms. Matsui for 5 minutes.
    Ms. Matsui. Thank you very much, Mr. Chairman. I want to 
thank the Commission for appearing here today.
    Last month, Congressman Guthrie and I, along with Senators 
Wicker and Schatz, introduced the Spectrum Now Act. Current law 
limits how much of the existing spectrum relocation fund 
resources can be used by the agencies to perform the research 
and related activities necessary to potentially reallocate or 
share their spectrum.
    Specifically, the framework in the Spectrum Now Act could 
provide a pathway for NTIA and DOD to make an additional 100 
megahertz of spectrum available in a 3.4 gigahertz band.
    Commissioner O'Rielly and Rosenworcel, what potential does 
a 3.4 gigahertz band have in our effort to allocate additional 
mid-band spectrum for wireless use?
    Mr. O'Rielly. Well, I will go first.
    To your point, if you can combine the 100 megahertz at 3.45 
to 3.55, if we are able to convert it to commercial uses, you 
can combine it with the CBRS band at 3.55 up and then 3.7 to 
3.4. You are talking about building 100 megahertz blocks, which 
most industry participants will say is the minimum necessary to 
be able to offer real 5G in mid-band.
    So having big blocks and as much as you can possibly make 
available. Here's the sweet spot. We believe--I believe in 
multiple conversations that DOD was ready to convert and then 
changed its mind.
    Ms. Matsui. I see.
    Mr. O'Rielly. I think we could be aggressive----
    Ms. Matsui. Do you agree?
    Ms. Rosenworcel. I agree with my colleague. We need more 
mid-band spectrum. We need it fast. If want 5G service to get 
everywhere this is the band that we have been looking at and we 
understand DOD is also looking at. We've got to keep putting on 
some pressure to make it happen.
    Ms. Matsui. OK. As you are all likely aware, the effort to 
ensure our radio spectrum resources are used efficiently and 
effectively has been a long and ongoing focus of the 5.9 
gigahertz band.
    While this band is particularly well situated for next 
generation services, it has not seen widespread deployment. To 
that end, I am interested in a path forward that adequately 
balances the interests of all stakeholders and provides that 
regulatory certainty necessary to facilitate the deployment of 
services in this band.
    One such proposal internationally suggests a sharing 
solution allocating a portion of the 5.9 band for intelligent 
transportation solutions including potentially cellular-based 
standards and a portion necessary for Next Generation Wi-Fi.
    Chairman Pai, Commissioner O'Rielly, and Commissioner 
Rosenworcel, mindful of the competing interests and the need 
for more licensed and unlicensed spectrum to facilitate the 5G 
transition, how can the Commission best move forward with a 
rulemaking to address these demands?
    Mr. Pai. Grateful for your longstanding leadership on this 
particular band, Congresswoman.
    I said yesterday publicly my belief that we need to have a 
full-fledged conversation about the future of the 5.9 gigahertz 
band. Key up all of the options including the status quo DSRC 
but also looking at some of the Next Generation technology of 
CV to X and particularly unlicensed to figure out what the 
right way forward is.
    But it is time to have that conversation because over the 
past two decades, as you know better than anybody we have not 
seen optimal use of this public resource.
    Ms. Matsui. Exactly.
    Commissioner O'Rielly? Yes.
    Mr. O'Rielly. I would say that a portion of this, in my 
opinion, a portion of the 5.9 band will need to be and should 
be made available for unlicensed services. It can be shared 
amongst participants and still accommodate the different CAR 
safety functionality.
    Ms. Matsui. OK.
    Ms. Rosenworcel. I agree with my colleagues. We need more 
Wi-Fi. The sooner the better, and the place to look is the 5.9 
gigahertz band and 6 gigahertz band.
    Ms. Matsui. That is--I am going to follow up with the 6 
gigahertz.
    Ms. Rosenworcel. Oh, I knew it.
    Ms. Matsui. OK. Last year, my Spectrum Caucus cochair, 
Congressman Guthrie, and I sent a letter to the Commission in 
support of additional spectrum allocations.
     Inadequate supply of spectrum in the low, middle, and high 
bands will be necessary, as you know, to deployment of Next 
Generation spectrum-based services.
    These networks will also require sufficient spectrum 
allocated to both licensed and unlicensed use. Congressman 
Guthrie and I also penned a joint op-ed with both Commissioners 
O'Rielly and Rosenworcel on the importance of moving forward 
with NPRM focus on additional uses on the 6 gigahertz.
    Now, Commissioner O'Rielly and Commissioner Rosenworcel, 
can you discuss the need to expand wireless services in the 6 
gigahertz band while, of course, ensuring the various important 
incumbent users are protected?
    Do you want to start or you want to----
    Ms. Rosenworcel. Sure. We have got 9 billion devices 
connected to Wi-Fi and the airwaves we use for it today are 
crowded. We need more unlicensed spectrum and the place to look 
is the 5.9 gigahertz band and 6 gigahertz band.
    And plus, this committee told us in the appropriations 
legislation last year we have to find 100 megahertz of spectrum 
below 8 gigahertz by 2022. This is the place to go and make it 
happen.
    Ms. Matsui. Do you agree, Commissioner O'Rielly?
    Mr. O'Rielly. Absolutely I agree with my colleague on this.
    Ms. Matsui. OK. Great. Well, I will yield back.
    Mr. Doyle. The gentlelady yields back.
    The Chair now recognizes Mr. Welch for 5 minutes.
    Mr. Welch. Thank you.
    Mr. Chairman, I have observed that the Commissioners have 
all gone to charm school. No matter how stupid our question, 
it's always a great question and you really appreciate it. So 
we----
    [Laugher.]
    Mr. Welch [continuing]. We appreciate that. So I am going 
to ask some very intelligent questions.
    [Laughter.]
    Mr. Welch. And you don't have to thank me for doing it. I 
will waive the compliment, OK.
    Chairman Pai, I want to talk to you a little bit. You know, 
this is a real situation about rural broadband and I know you 
and the President had a roll out, and that--about the $20.4 
billion rural digital opportunity fund and it proposes to spend 
$20 billion to connect 4 million homes and small businesses 
over the next 10 years.
    That opportunity fund appears to me to essentially be a 
rebranding of the current Universal Service Fund's Connect 
America fund, which has awarded $9 billion for rural deployment 
in the past 5 years. That is what it looks like to me.
    So, first, you and the President are saying this program 
has the goal of getting broadband to 4 million homes by 2030. 
But we know that 25 million Americans currently lack access to 
broadband.
    So it's not that big a deal, number one, and what are we 
going to do about those other 21 million Americans?
    Mr. Pai. Congressman, thank you for that greatest ever 
question at a congressional hearing.
    [Laughter.]
    Mr. Pai. And I say that objectively. So this is more than 
just a rebranding. I can tell you that what we are looking at 
is a fundamental rethink of the Connect America fund.
    Mr. Welch. If it's not rebranding--I am sorry to 
interrupt--but is there new money?
    Mr. Pai. No, it's a rethink about how that money is 
allocated and distributed.
    Mr. Welch. So the answer is no?
    Mr. Pai. No. It's a fundamental rethink of the program.
    Mr. Welch. Right. But there is no new money.
    Mr. Pai. We don't have the authority to--we can't spend 
money that----
    Mr. Welch. But my point is this was--this was presented to 
the public as a big deal, all right. Rethinking, I am always 
for that and if we can do better with what we have I am all for 
that.
    But it's not new money. We had a program that was intended 
to get these--this out to help Connect America, right?
    Mr. Pai. No, Congressman. If we restructure it as I 
envision it, it will be a fundamentally different program. 
Using the reverse auction, having the speed tiers that get 25.3 
service if not gigabit service in rural America, making sure 
there is accountability----
    Mr. Welch. All right. So that--I am for figuring out the 
best way to do it. But you, I think, have answered my question 
that it is not new money. It is a newly designed program using 
old money.
    Mr. Pai. It would be a rethinking of the--yes, the Connect 
American fund term, which would end in 2020 with a 1-year 
extension under current law.
    Mr. Welch. And if it's successful we will still have 21 
million Americans without broadband?
    Mr. Pai. Well, the figure would go--I can't recall the 
exact figure. But, again, we are trying to allocate that 
funding to close the digital divide as much as we can.
    Mr. Welch. Well, it is not enough. OK. It really isn't, 
and, you know, the mapping issue too that we have been talking 
about those are just--are you prepared to say that those are 
bogus?
    Mr. Pai. We recognize the shortcomings in the maps. That is 
why we are----
    Mr. Welch. No. I mean, they are not shortcomings. They are 
fiction. They really are. I mean, we had a person from the 
Vermont Public Utility Commission drive around and do the 
mapping in real time to get real signals and compare it to the 
supposed service that the carriers were bragging about. No 
connection. It was like fiction, and that has got to be, like, 
completely unacceptable to every single one of us here. We just 
want to get the information that Mr. Latta and I are concerned 
about for rural America.
    So I am hopeful that you don't give credence to what we now 
know are bogus maps.
    Mr. Pai. I hear your concern, Congressman, 100 percent.
    Mr. Welch. Well, I hope you do more than that.
    Ms. Rosenworcel, by the way, I was in the Delta--my wife 
and I went to the Mississippi side of the Delta, the cotton, 
and it is an amazing place with really good people in a very 
poor location, and I really appreciated your advocacy for them 
getting broadband.
    What are the three things we should be doing right now to 
accelerate the build out of broadband? And thank you for your 
homework gap work.
    Ms. Rosenworcel. OK. First, we have got to get our maps 
accurate. We are never going to be able to manage a problem 
that we do not measure.
    Second, we have to recognize this is not just a challenge 
of deployment. It also involves adoption. We have got to figure 
out how kids who don't have internet service to do their 
homework can get the service they need.
    We are going to need programs to help make sure that there 
are wireless hot spots available for loan in every school 
library. We have got to solve this homework gap. It affects 
urban America and rural America alike.
    And third and finally, we have got to auction mid-band 
spectrum faster. Those are the airwaves that will reach rural 
America. Right now, all of our 5G efforts are concentrated on 
high-band spectrum. We will never see 5G in rural America if we 
stick to that program.
    Mr. Welch. Thank you very much.
    I yield back, but I want to thank all the Commissioners. I 
wish I had more time and welcome to our new Commissioner, Mr. 
Starks. Thank you.
    Mr. Starks. Thank you, Congressman.
    Mr. Doyle. The gentleman yields back.
    The Chair recognizes Ms. DeGette for 5 minutes.
    Ms. DeGette. Thank you so much, Mr. Chairman.
    You know, Chairman Pai, I know you will agree that having 
laws and rules in place is really important but so is enforcing 
those laws and rules. And so I just wanted to ask you a couple 
of questions about the FCC enforcement.
    We have been talking a lot today about all kinds of issues. 
But one of them that is--weighs most strongly on us is the 
robocalls. As you hear and as we found bipartisan unity in our 
recent hearing, the FCC has fined robocallers $208 million but 
collected only $6,790 as of March 28th of this year. Is that 
correct?
    Mr. Pai. That is my understanding, Congresswoman.
    Ms. DeGette. And it has been over a year--I think some of 
my other colleagues pointed out it has been over a year since 
the reports first surfaced detailing the widespread disclosure 
of America's real-time location data by wireless carriers.
    But the FCC hasn't yet voted on any item to stop the 
sharing of location data by wireless carriers. Isn't that 
correct?
    Mr. Pai. That law enforcement proceeding is still pending, 
yes.
    Ms. DeGette. Yes. But the FCC has not taken any--has not 
voted on any item to do that, right?
    Mr. Pai. That is correct.
    Ms. DeGette. And 18 months after a $13 million proposed 
fine against Sinclair for not disclosing when it had been paid 
to air content, the FCC still hasn't voted on a forfeiture 
order. Is that correct?
    Mr. Pai. Yes.
    Ms. DeGette. Now, Commissioner Starks, welcome, and you 
have been a prosecutor at both DOJ and an assistant chief in 
the FCC's enforcement bureau. Are you concerned about this 
pattern and how it's impacting the FCC's enforcement authority?
    Mr. Starks. Yes. Thank you so much for the question, 
Congresswoman.
    Ms. DeGette. And why is that?
    Mr. Starks. Well, the enforcement bureau is the largest 
bureau at the FCC and so I think it is incumbent upon them to 
deploy their resources and prioritize cases that are of mass 
public safety.
    The geolocation tracking, privacy tracking, is a mass 
public safety issue. That case has to be prioritized. It has to 
be brought to resolution more quickly.
    When you are talking about other issues of robocalling and 
Sinclair, those go to the core mission of the FCC and the 
enforcement bureau has to make sure that we are bringing those 
cases significantly.
    Ms. DeGette. And what can--what can--I know you're brand 
new but sometimes it does take a new set of eyes, especially 
someone with an enforcement background. What can the Commission 
do specifically to improve its track record on enforcement?
    Mr. Starks. Yes. Thank you for the follow-up question.
    I think the first thing is a speed of disposal on cases is 
going to be important. I know it's part of some of the process 
reforms that the enforcement bureau has otherwise taken.
    It is really important to make sure that we are getting 
through the pipeline of cases for the enforcement bureau so 
that evidence in cases don't get stale.
    The other thing that I would really raise is it's 
critically important for there to be a consistent application 
of policies that you don't have an asymmetry of enforcement 
where large actors and small actors get different treatment, 
big corporations and individuals get different treatment.
    Ms. DeGette. Thank you.
    Commissioner Pai, what is your view on those suggestions?
    Mr. Pai. Appreciate the question, Congresswoman. I mean, 
certainly, we do prioritize those cases. I have instructed our 
enforcement bureau to make that particular location accuracy--
location data investigation a priority.
    Ms. DeGette. Well, do you think these are good suggestions 
that Commissioner Starks is making and would you consider 
those?
    Mr. Pai. Oh, absolutely. Would be happy to, and I have met 
personally with Commissioner Starks on these issues and I 
think--yes.
    Ms. DeGette. OK. Good. Good. Thank you.
    I would hope to see more robust enforcement because that 
really is what is important.
    In 2017, the National Digital Inclusion Alliance released 
research into low-income and minority neighborhoods in 
Cleveland and talked about it had been digitally red-lined, 
bypassed by the fiber deployments of the incumbent telecom 
provider that reached the wealthy suburbs and business 
districts of Cleveland.
    The same was found in Detroit, and anecdotally, I hear 
similar claims about my--the core of my congressional 
district--Denver, Colorado.
    So I wanted to ask you, Commissioner Rosenworcel, what 
tools and authority does the FCC need to prevent digital red-
lining?
    Ms. Rosenworcel. Thank you. We have got a problem. It is 
not just in rural areas that don't have service. We have 
pockets in urban that don't, too. I think right now the FCC 
should include in its regular broadband report a collection of 
data regarding those areas because we are never going to be 
able to fix this problem if we first don't understand where it 
exists. I think it is something that the FCC has to actively 
search to try to understand.
    Ms. DeGette. Does the FCC have the power to do that?
    Ms. Rosenworcel. I believe in our Section 706 process, 
which involves a regular broadband deployment this should be a 
feature of it.
    Ms. DeGette. Thank you. Thank you very much, Mr. Chairman. 
I yield back.
    Mr. Doyle. The gentlelady yields back.
    The Chair now recognizes Mr. Lujan for 5 minutes.
    Mr. Lujan. Thank you very much, Mr. Chairman.
    I want to thank all the Commissioners for making themselves 
available today and for their work. Welcome to the Commission 
as well, Mr. Starks. It is good to see you here with us today.
    There has been a lot of conversation today about mapping. I 
think my colleague here with me on the dais referred to it as 
fiction.
    I think I want to join him in that chorus and from this 
perspective, and I would be interested in hearing perspectives 
as well from the Commissioners on this.
    What can be done to make sure that we have updated accurate 
maps? We are talking right now about an infrastructure package 
which will include, I hope, broadband investments in 
underserved communities. We all know where phone calls drop, 
especially those of us that spend time on the roads in larger 
districts across America.
    I often shared with Chairman Wheeler and, Chairman Pai, I 
think I have shared this with you as well--it makes no sense to 
me that I can get on an airplane in a big city in America, get 
to 30,000 feet, connect to the internet and have faster speeds 
than the communities that I am flying over just below us.
    How can we fix this? This is a life safety issue. I shared 
this story with President Trump and with his team at the 
infrastructure meeting of Ashlynne Mike, an 11-year-old Navajo 
girl who was kidnapped, raped, and murdered in 2016.
    The Amber Alert systems weren't working. No broadband 
connectivity. Many missing and murdered indigenous women, some 
who we know had smart phones. Even if they had a chance to make 
a phone call or send a text message or when they went missing 
law enforcement could not find them because there is no 
connectivity.
    We need these maps to be accurate for many reasons. 
Chairman Pai, what are your thoughts on making sure that we are 
able to get something in place and a full support by the FCC to 
get this done so that way the infrastructure package that we 
have also reflects the needs? That way the American people 
don't just get to see a bar on their phone and say, oh, well, I 
am supposed to have coverage but I can't make a call--I can't 
make an emergency call--I can't use it.
    Chairman Pai?
    Mr. Pai. Thank you for the question, Congressman.
    I think, first and foremost, on the fix side we need to 
resolve the 477 proceeding to get a better understanding--more 
granular understanding--where broadband coverage is and we are 
in the process of working with stakeholders to do that.
    On the mobile side, we need to make sure that we get 
accurate data on mobile coverage for GLTE in particular to 
understand where the gaps are.
    But I couldn't agree with you more in terms of an 
infrastructure plan. In my first major speech as a Chairman, I 
said Congress has many important things on its plate. Nothing 
is more important to millions of Americans, especially in rural 
and Tribal lands, then getting that Next Generation broadband 
infrastructure.
    I have seen the promise of it in places like the Jemez and 
Zia Pueblos. We need to make sure that everybody in rural 
America----
    Mr. Lujan. Chairman Pai, are you willing to hold those 
phone companies accountable that give me a map that says I have 
connectivity when I know that I don't and can we set up a 
system within the FCC so that we can report that to you?
    We can have--I can geolocate where I am and where I don't 
have a call. I can't get connectivity but I can stand there and 
take a picture or do something. Can we work on something like 
that together?
    Mr. Pai. I would be happy to work with you on that, 
Congressman.
    Mr. Lujan. Commissioner Rosenworcel, I note, you know, 
Senator Manchin has an idea, you know, with maybe using postal 
carriers who know every rural road in America.
    Ms. Rosenworcel. Yes. We need every creative idea we can 
right now. The FCC should be using its field offices to go test 
where service is and is not. We have a mobile app for speed 
test that has been downloaded 200,000 times all across this 
country.
    We could use data from that to help inform our maps. I 
mean, people want to help. We got to figure out how to take 
their lived experience and incorporate it into our maps and our 
rules.
    Mr. Lujan. And, Mr. Chairman, this may be an area for us to 
work on in a bipartisan basis, get this thing updated, clear 
out those frustrations. That way we can get some answers and 
make sure this works.
    So I would be happy to work with the Commissioners, 
Chairman Pai, Commissioner Rosenworcel, and we will reach out 
to the other Commissioners, see how we can work together on 
this issue as well.
    Homework gap--Commissioner Rosenworcel, I appreciate the 
work you have been doing as well. Where I come from, like many 
rural districts, 47,000 square miles, 8 1A\1/2\ hours to drive 
across it.
    Students get on buses for over an hour sometimes in one 
direction. You were out in New Mexico. We had a chance to go 
visit some students with one of the test projects with getting 
internet on those buses. Can you talk about the importance of 
accurate on mapping but making sure that we have a canopy 
across America where people can stay connected and what that 
means to students?
    Ms. Rosenworcel. Yes. Seven in 10 teachers assign homework 
that requires internet access. But one in three households 
doesn't have it, and where those numbers overlap is a homework 
gap and it is the cruelest part of our digital divide.
    It hits rural America really hard. What are we going to do 
for those students? Putting Wi-Fi on buses could be a game 
changer. Those students spend over an hour to get to school 
most days and an hour to return.
    You and I went on a bus together. It was quiet. Every one 
of them was downloading homework and doing their school work. 
It will change their education and change their lives. We 
should figure out how we can use the E-rate program to make 
that available everywhere.
    Mr. Lujan. Thank you, Chairman. As I yield back, just also 
making sure that we work with Tribal schools to ensure that 
they are not left out with the complexities associated with the 
E-rate program. It should work for every school, every student, 
every teacher in America.
    So I look forward to working with you, Mr. Chairman. Thank 
you, Commissioners, again for your work.
    Mr. Doyle. Gentleman yields back.
    The Chair recognizes Ms. Eshoo for 5 minutes.
    Ms. Eshoo. Mr. Chairman, thank you for holding this hearing 
today. Welcome to the entire Commission and the warmest of 
welcomes, Commissioner Sparks. I wish you every success. Use 
your power. Know thy power. Use thy power.
    I think that there is an advantage to being just about the 
last one, because I have listened to just about everyone on 
both sides, and there is a reoccurring theme on both sides in 
terms of the questions, even though my colleague, Mr. Welch, 
seems to think that stupid questions were asked. But I think 
they were great questions.
    I want to say to you, Mr. Chairman, I don't have a good 
feeling today. I just--I wish I was going to leave the hearing 
room with a much better feeling. The same issue of maps keeps 
coming up.
    Ten years ago, Google advanced Google Maps. It doesn't go 
blank when you look it up. It doesn't say, we can't find it--we 
don't know where it is. We are working on it. We've got some 
task force on it.
    You really have to put the pedal to the metal. If this is a 
top priority, you can get it done. You can contract with 
someone that knows how to do this, produce it so that we have 
it so we know what the hell we are doing, in plain English.
    This has gone on for too long. On robocalls, you know what? 
With all due respect, a summit doesn't cut it. You come to a 
town hall with me or any of my colleagues and you say to the 
people in that town hall meeting, we are having a summit, they 
will lunge at you because it's not an answer.
    You should put together a division at this powerful agency 
and say put the pedal to the metal so that we resolve this. It 
keeps climbing. Forty-eight billion calls. I mean, it is hard 
to get our minds around that. And these are scams. People are 
being ripped off.
    They are not only being harassed, but there is criminal 
behavior in this. You should form a division and say to the 
American people within X number of months this is what we are 
going to accomplish and grade us on it--I am willing to be 
graded.
    On Lifeline, I don't know how anyone with a conscience--
Ronald Reagan established that program. There is a nexus 
between people that are very poor that were it not for the food 
stamps they get they wouldn't be eating, and the FCC is not 
going to allow them that Lifeline to their wireless handset? To 
get a job, to call for healthcare, to make a call to 9 091 091? 
This has to be part of your conscience in terms of what you are 
doing and I am saying that collectively.
    In January, Motherboard reported that carriers were selling 
customers' geolocation data to bounty hunters. Just that term 
scares me--a bounty hunter, bail bondsmen and stalkers. As a 
female, that is pretty menacing to me.
    This is--it is egregious. Carriers promised to stop the 
practice but they made the same promises a year ago. You have 
the power to do something about this.
    Now, there are two Commissioners who you haven't even 
shared the information about the investigation with. Now, this 
is taking so long that you are running the clock on this darn 
thing.
    I mean, pretty soon you are going to be up against the wall 
where the statute of limitations expires on it. Are you going 
to try to do something about that? You said today, I can't talk 
about it--I can't talk about it.
    You know what? Don't talk about it. Do an investigation, 
and do something about it. That is the point here.
    So do you promise today--can you tell us today that you are 
going to share information with two full-fledged members of the 
Commission? This is not a Democrat or Republican issue. It is a 
serious issue where people have--are frightened by what has 
happened and I don't what you are doing with it. You can't tell 
us. You are saying you can't tell us. But will you tell them?
    Mr. Pai. Congresswoman----
    Ms. Eshoo. Yes or no. Yes or no.
    Mr. Pai. This is not a yes or no question, Congresswoman.
    Ms. Eshoo. Yes, it is. Yes, it is. They are Commissioners--
full Commissioners. They are not half. They are not quarter. 
They are not one-third. Just because they are Democrats, you 
shouldn't withhold the information from them. So will you or 
will you not?
    Mr. Pai. Congresswoman, not only have I not withheld 
information, I affirmatively asked Commissioner Starks to lead 
this investigation months ago because I recognized the 
importance of this issue and respected his enforcement 
background.
    Ms. Eshoo. They have requested information about the--you 
know what? You are a great talker. You are a great talker.
    But I am just going to consider that you have said--that 
you have said no and I don't think that that is appropriate. So 
I am sorry that I don't find the scorecard to be a great one 
today.
    There are other things that are going on. I appreciate 
Commissioner O'Rielly's work on--that we do something about the 
diversion of fees and the States that are on the dishonorable 
list and I will continue with the legislation on that.
    But I really think you have to up your game so that next 
time you come here you have a checklist of what you have 
accomplished, not what you keep talking about.
    Mr. Doyle. The gentlelady's time has expired.
    Mr. Starks. Mr. Chairman?
    The Chair now recognizes Mr. Griffith.
    Mr. Starks. Mr. Chairman?
    Mr. Griffith. I thank--I thank the chairman very much.
    Mr. Starks, you want to make a comment?
    Mr. Starks. Yes. Thank you.
    Mr. Griffith. I yield my time.
    Mr. Starks. I appreciate it. The Chairman did reference 
that he asked me to--he did in fact ask me to take on the 
geolocation investigation. It was right after I was sworn in, 
and so I did appreciate his gesture on reaching out to me on 
that.
    I asked for a briefing from the enforcement bureau. The 
case had already been open for about 8 months. What I heard at 
that briefing did not give me confidence that that case was 
moving along quickly enough, and so I did inform the Chairman 
that I was not going to take on that matter.
    And so the matter still stands that on the geolocation 
tracking it is of critical safety that that case be brought to 
resolution immediately. People are out there and you can track 
their phone immediately, and I cannot emphasize enough how 
important that is.
    Mr. Griffith. And if I might ask, Mr. Starks, and I am just 
trying to get information, but that enforcement proceeding--the 
FCC may collect data, but doesn't the FCC have to rely on the 
Department of Justice to go after the bad actors?
    Mr. Starks. No, we have--sir, we have Section 222 authority 
to go after----
    Mr. Griffith. So you can go after the bad actors?
    Mr. Starks [continuing]. To go after geolocation--yes, I 
believe you can go after----
    Mr. Griffith. On geolocation?
    Mr. Starks [continuing]. The carriers. Yes, sir.
    Mr. Griffith. OK. Chairman Pai, is there any information 
that Mr. Starks would like to have that he is not able to get? 
If he wanted it he could have it? Is that what I heard you 
saying?
    Mr. Pai. I am not aware. I would be happy to talk with him 
about that. But what I will say in response to your question, I 
think you were going after the robocall enforcement and that 
there is a gap under current law.
    To the extent that the FCC imposes a fine through a 
forfeiture order and the robocaller refuses to pay----
    Mr. Griffith. On the robocalls.
    Mr. Pai. --only the Department of Justice has independent 
litigating authority to actually collect that fine and we have 
sent these matters--referred them to the Department of Justice 
for collection. But we don't have the ability to litigate 
affirmatively to collect those fines.
    Mr. Griffith. OK. All right. And the reason I wanted to 
clear this up is that, like my colleague on the other side of 
the aisle, I don't see anybody being left in the dark who is 
authorized to have the information who should have that 
information.
    And so on the geolocation issue--and I am not a regular 
member of this committee so forgive me for stumbling through 
some of the terms. I waived on because this is important to my 
district. All of these issues are.
    Everybody can get the information who seeks it out and what 
can we do to--because people are concerned about that--what can 
we do if the information wasn't there that he wanted or he 
didn't feel like he was going in the right direction? What can 
we do to speed that along?
    Mr. Pai. Again, I can't comment on----
    Mr. Griffith. I understand. Was there some----
    Mr. Pai [continuing]. Enforcement as such. But I can say 
our enforcement bureau staff regularly briefs Commissioners on 
a variety of issues, including this one.
    Mr. Griffith. Just let them know that both sides of the 
aisle are concerned about that issue and if there's something 
we need to be doing on the congressional side to make this 
available or make resources available so that you can move 
faster, we would I am sure be happy to do that.
    All right. Along those same kinds of lines, let me say that 
the mapping issues are huge in my area. I like the suggestion 
earlier of having the postal service contracted because they 
have got people going every nook and cranny of the country.
    But, I mean, I represent the southwestern portion of the 
great Commonwealth of Virginia and I have Virginia Tech in my 
district, and I have people all around Virginia Tech within a 
few miles of Virginia Tech who don't have service.
    One lady that comes to mind is a friend of mine. Has a 
house in between Virginia Tech and Interstate 81. Doesn't have 
service. And I doubt that is on anybody's maps that they--that 
there are these big holes.
    But because it's a--although they are not as big as my 
friend from Montana's mountains, we have lots of mountains and 
they block signals and all sorts of things.
    So my folks don't care whether it's mid-band or white 
space. They just want to make sure we are getting service 
because we do have that homework gap that one of the other 
Commissioners referenced, and it's all over the place in my 
district, and we are doing everything we can.
    The Universal Service Fee helps in some areas. But we would 
like to see that expanded.
    Now, that being said, I have always been interested in the 
experiments that were being done on the white spaces, and while 
not as technologically advanced and able to talk about it as 
some of my colleagues, can you explain to the folks back home 
what that is and where we stand on that experiment and how soon 
can we expect that to get out?
    Because if I understand it even halfway correctly, every 
part of my district has got some white space.
    Mr. Pai. A great question, Congressman, and thank you for 
it.
    I have seen the promise of it in places like South Boston, 
where I saw one of the white spaces experiments and----
    Mr. Griffith. Which is about an hour east of me.
    Mr. Pai. It's a little more urban than you----
    Mr. Griffith. You'd be surprised how big Virginia is.
    Mr. Pai. Exactly. So in a nutshell, white spaces involves 
the prospect of using what used to be spectrum used by TV 
broadcasters to deliver wireless broadband, and there have been 
a lot of tricky technical policy issues that we have been 
working through.
    Recently, the FCC adopted an order resolving some of the 
outstanding petitions for reconsideration on how the database 
would work, et cetera. We are now looking to a petition that is 
going to be submitted, we understand, from Microsoft--if it 
hasn't been submitted already--to figure out a way to resolve 
some of the remaining issues, get through those technical 
hurdles.
    And I want to commend both Microsoft and the National 
Association of Broadcasters for working together on some of 
those to reach a consensus. And to the extent there is a 
consensus that allows us to move forward, we would like to be 
able to do so.
    I can't give you a specific time line because these are 
complicated technical issues. But what I will say is we 
understand the promise of this technology and we were looking 
forward to working with you and others in your district to 
bring it to reality.
    Mr. Griffith. I can tell you that folks are frustrated. It 
does make a difference on our educational opportunities and in 
my district in particular, which is depopulating, we need to be 
able to keep some of our young people at home and some of our 
young minds at home.
    And if they can't start a business in their home town 
because they don't have adequate service, then they're moving 
out of the district completely. And when we are trying to 
revitalize the coal fields section of my district economically, 
this is an absolute imperative.
    So I appreciate it, and just do whatever you can to speed 
it up. And if we need to do something, please let us know 
because both sides of the aisle are willing to help on this.
    I yield back.
    Mr. Doyle. The gentleman yields back.
    The Chair now yields 5 minutes to Mr. Cardenas.
    Mr. Cardenas. I agree that Congress needs to speed it up. 
Maybe we ought to increase our band--the broadband here.
    Mr. Chairman, thank you so much for holding this important 
hearing, and there are so many issues to cover. Hopefully, we 
can cover a few in my--in the limited time that they give us.
    I first want to visit the media ownership rules. I have 
been vocal about ownership rules since I was first elected to 
Congress because I care about diverse voices in the media.
    I care about local stories and news being accessible to all 
Americans. The way consumers watch video may be changing but 
for most folks over the air is still how they receive local 
news, local weather, emergency alerts, and local entertainment.
    Like, for example, in Los Angeles our L.A. Dodgers is 
limited to only a certain number of households.
    Chairman Pai, for over a year you have had an open 
proceeding on raising the media ownership cap, which is 
currently at 39 percent. That means one company can reach up to 
39 percent of households.
    The cap of 39 percent, Chairman Pai, is set by statute. Is 
that correct?
    Mr. Pai. I do not necessarily agree with that position, 
Congressman.
    Mr. Cardenas. OK. Thank you for your answer.
    I believe it is set by statute, which means that only 
Congress has the authority to change how many households a 
single broadcaster can reach.
    Commissioner Rosenworcel, do you agree?
    Ms. Rosenworcel. I agree with you, Congressman. The best 
reading of the 2004 Appropriations Act is that it is up to 
Congress to make that change and I would add that the Wall 
Street Journal's editorial board seems to agree.
    Mr. Cardenas. Thank you.
    Commissioner Pai, you propose further changes to the media 
ownership rules in the Quadrennial Review NPRM. This is after 
you have already slashed media ownership rules to all the 
biggest media conglomerates to just get bigger.
    So yes or no. Have you done an analysis of what effect 
those rule changes along with the media ownership changes you 
already made will have on diversity of content that is 
broadcast in America?
    Mr. Pai. Congressman, that analysis is ongoing as part of 
our Quadrennial Media Ownership Review.
    Mr. Cardenas. OK. Well, hopefully, we will see that soon.
    Yes or no, have you done an analysis on whether those 
changes have had or will have any effect on whether communities 
are receiving localized content?
    Mr. Pai. Sorry, Congressman. Which changes are you 
referring to?
    Mr. Cardenas. I am referring to changes where a larger 
conglomerate actually has control of local stations and whether 
or not that local news type or information type is actually 
being broadcast from locally or is it being pushed down from 
the bigger corporation, in some cases thousands of miles away?
    Mr. Pai. Well, Congressman, with respect to the current 
media ownership proceeding, we have not proposed any course of 
action. We teed up all the different options pursuant to 
Congress' instruction for the FCC to review those rules.
    With respect to the incubator program, however, what I will 
say is we have encouraged some of the more established 
broadcasters to give opportunities to minority women and other 
disadvantaged populations to get a foothold in the business and 
that symbiosis might be one way of correcting the concern that 
you have identified.
    Mr. Cardenas. Well, I look forward to getting the hard data 
on how this is affecting minority businesses, smaller business, 
et cetera, in the ecosystem of media.
    I would like to turn to ATSC 3.0, or Next Generation TV, 
which is a standard upgrade that promises over-the-air viewers 
higher quality video, audio, as well as more localized news, 
weather updates, and, more importantly, emergency alerts.
    I understand that the FCC imposed only one technical 
requirement in this new standard, which is that Next Gen TV 
must use the bootstrap signal.
    The bootstrap signal's patent is owned by, quote, ``ONE 
Media''--O-N-E Media--which is a subsidiary of Sinclair, a 
company which the FCC has said lacked candor, essentially, that 
has misled the FCC in its filings. That is Sinclair I am 
talking about.
    When the FCC has approved technologies like this in the 
past, they customarily require the use of reasonable and 
nondiscriminatory licensing for patent holders, taking out any 
incentive to abuse the licensing process--abuse that could lead 
to increased costs for consumers.
    Chairman Pai, the reasonable and nondiscriminatory 
licensing requirements were not applied in this case. Is that 
correct?
    Mr. Pai. I believe that is correct.
    Mr. Cardenas. OK.
    Commissioner Rosenworcel, do you think the FCC should have 
applied RAND licensing requirements here and how do you think 
this might affect consumers?
    Ms. Rosenworcel. Yes. When the Government chooses a new 
standard, it gives special rights to patent holders, and as a 
condition of those special rights it is typically required 
reasonable and nondiscriminatory pricing.
    As you said, that is just what the FCC did with the ATSC 
1.0 standard. We should be doing it with the 3.0 standard too, 
otherwise consumers are going to pay more.
    Mr. Cardenas. OK. And those consumers are American 
consumers we are talking about, right?
    Ms. Rosenworcel. Absolutely. It is every American household 
with a television set or any device connected to it.
    Mr. Cardenas. Thank you very much. I yield back.
    Mr. Doyle. The gentleman yields back.
    The Chair now requests unanimous consent to enter the 
following documents into the record: a letter from the National 
Association of Federally-Insured Credit Unions, a letter from 
the Electronic Privacy Information Center, a letter from the 
Intelligent Transportation Society of America, a statement from 
Edison Electric Institute, the National Rural Electric 
Cooperative Association and the Utilities Technology Council.
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Doyle. I want to thank all the witnesses for your 
participation in today's hearing. I want to remind Members 
that, pursuant to committee rules, they have 10 business days 
to submit additional questions for the record to be answered by 
the witnesses who have appeared.
    I ask that each witness respond promptly to any such 
questions that you may receive.\2\
---------------------------------------------------------------------------
    \2\ All five witnesses' answers to submitted questions have been 
retained in committee files and also are available at https://
docs.house.gov/Committee/Calendar/ByEvent.aspx?EventID=109479.
---------------------------------------------------------------------------
    I want to thank all the witnesses for your participation in 
today's hearing. Thank you again for your presence today, and 
at this time the subcommittee is adjourned.
    [Whereupon, at 1:04 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                Prepared Statement of Hon. Anna G. Eshoo

    Chairman Doyle, thank you for holding this critical hearing 
to ensure the Federal Communications Commission (FCC) is 
meeting its responsibilities consistent with the public 
interest and the laws Congress has written.
    Unfortunately, the FCC under the leadership of Chairman 
Ajit Pai continues to serve the interest of companies at the 
cost of consumers and local communities, ignore facts and data, 
limit public transparency, and resist Congressional oversight. 
Under this FCC, the number of robocalls has skyrocketed with no 
end in sight, wireless carriers have been caught selling 
customers' geolocation data on two occasions, and the National 
Verifier program is denying low-income Americans access to 
Lifeline. This is an outrage.
    Last fall, the FCC preempted municipalities from having a 
say in deployment of small cell sites, the infrastructure 
needed for 5G. America needs to win the race to 5G, but this 
must be done equitably. Local officials need to have a say in 
infrastructure. This is why I introduced H.R. 530, the 
Accelerating Wireless Broadband Development by Empowering Local 
Communities Act of 2019, overturns FCC regulations limiting the 
ability of local governments to regulate the deployment of 5G 
infrastructure. Over 145 municipalities and 135 public power 
utilities endorsed this bill. This legislation wouldn't be 
needed if the FCC hadn't steamrolled local government.
    I worry that even though the FCC has taken steps to ensure 
spectrum is available for 5G, this is being done in such an 
inequitable way that the FCC's moves will actually put us 
further behind in the race to 5G. For example, nearly 100 
municipalities, public power utilities, and associations are 
suing the FCC over its small cell site regulations. Further, 
Mozilla and Santa Clara County are suing the FCC over its 
repeal of net neutrality protections.
    I've introduced H.R. 2355, the Regulatory Oversight Barring 
Obnoxious (ROBO) Calls and Texts Act, which creates a Robocall 
Division at the FCC to combat the scourge of robocalls. 
Robocalls are the number one source of consumer complaint at 
the FCC, and the agency should organize its work to respond to 
consumer complaints. Chairman Pai has the authority to do this 
on his own but has failed to act.
    I've written to the FCC with Rep. Yvette Clarke about major 
issues with the rollout of the National Verifier. As the FCC 
pushes National Verifier ahead in more States, it is denying 
Americans access to the Lifeline Program when they should be 
considered eligible.
    I've introduced legislation and written letters to rectify 
some of the issues at the FCC. What is lacking at the FCC is 
strong leadership committed to solve these problems. The 
American people don't care if a Federal agency announces a 
summit or hosts meetings. They want and deserve a Government 
that puts an end to the scourge of robocalls, ensures that 
wireless carriers aren't selling their geolocation data, and 
gives low-income Americans access to Government programs 
they're eligible for.
    I'm hopeful that this hearing will provide us with answers 
about all of the ways this captured agency is putting corporate 
interests ahead of the public interest.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
